     SEMIANNUAL     REPORT

APRIL i - SEPTEMBER     30, 1982

OFFICE   OF INSPECTOR   GENERAL

  U.S. DEPARTMENT    OF LABOR
                              TABLE OF CONTENTS

                                                                                 Page

PREFACE ...................                                                        (i)



PART I - SIGNIFICANT   PROBLEMS, ABUSES,
  OR DEFICIENCIES,   AND RECOMMENDATIONS
  FOR CORRECTIVE ACTION ...........                                                 1

   Employment           Standards         Administration            ....            1

   Employment           & Training         Administration                  • .   . 22

   Labor-Management                 Services       Administration                . 32


PART     II - SUMMARY           OF OIG ACTIVITIES .....                            36

    Office of Investigations                      .........                        36

    Office       of Audit ..............                                           43

    Office of Organized                 Crime & Racketeering                     . 53

    Complaint         Center        .............                                  65


PART III - MONEY               OWED     TO THE DEPARTMENT.                   . . 68



APPENDIX

    Selected         Statistics ............                                       73

    Audit Resolution                Activity .........                             74

    Status of Unresolved                  Audits.       • . .....                  76

    Summary        of Audit         Reports       Issued ......                    77

    List of Audit             Reports          Issued   .......                    78
                     PREFACE




This report covers the activities of the
Department of Labor's Office of Inspector
General for the period April 1 through
September 30, 1982, and is submitted pursuant
to the requirements of the Inspector General
Act of 1978.

The emphasis that OMB, the Secretary, senior
managers within OIG, and the Congress have
placed on fraud and waste issues has, we
believe, created an increased awareness
throughout the Department of the need to be
alert to such issues and an increased tendency
for program managers to work cooperatively
with the Office of Inspector General to
resolve not only past problems but also, more
importantly, to prevent future problems.

Indicative   of these trends   is the seriousness
with which the Department is implementing 0MB
Circular A-123, which calls for a system of
vulnerability  assessments and internal control
reviews of program and administrative   func-
tions.   While it is premature to assess the
results of this program, we are encouraged by
the high level of senior management involve-
ment and by the strong central planning and
coordination provided by the Office of the
Assistant Secretary for Administration   and
Management.

In addition, we have become more involved in
conducting joint projects with other Depart-
ment agencies.  One such project, on enforce-
ment of the Employee Retirement Income Security
Act of 1974, is described in this report;
another, a review of vehicle management,  has

                        (i)
 recently   been completed            and will    be   covered   in
 a subsequent   semiannual            report.


 Another    example    of    cooperation     is    our   increased
 audit   coverage   of      the Job Corps program.    This
 particular    program       has historically  received
 relatively     little   audit or investigative
 coverage    by the Office      of Inspector     General.
 Recently,    however,     there has been growing
 evidence    that coverage,      particularly     by our
 auditors,    should    be intensified°       Recognizing
 this,   Assistant     Secretary   Angrisani     and his
 staff   have worked     closely   with our office      in
 making   funds   and personnel      available    for a
 major   catch-up    effort    to achieve   audit cover-
 age of approximately        90 percent    of the Job
 Corps   program.


 We are    also being asked more frequently    by
 program    managers  for advice and assistance.
For example,      we have reviewed      numerous    proposed
employment     and training     contracts    and provided
our assessment      of potential     problems°     During
this period,      we also assisted      the Employment
and Training      Administration     in reviewing     a
state's    methodology     in computing     unemployment
figures    to determine     if improper     practices
were used by the state to qualify            for extended
u_employment      insurance   benefits.      We deter-
mined   that the methodology        indeed   was improper
and the Secretary       requested    the state to
recompute     its figures    using an acceptable
methodology.


 Nevertheless,     serious    fraud and waste     problems
 persist.     Despite    improvements    in the
Employment     and Training     Administration's
 financial    management     and procurement     controls,
we continue    to     question   a significant    amount
of dollars   due      to ineligible    CETA participants
and unresolved        subgrantee   audit   exceptions.

                               (ii)
These are not new problems; they have been
frequently cltedln  previous semiannual
reports.

We plan to continue an active audit and
investigative   effort in the Job training
area.   In terms of the Employment and Training
Administration,   our challenge during the
upcoming months will be to work intensively to
assist the Department in making certain that,
in implementing the new job training legis-
lation, we correct the problems that we found
in the previous program.     We believe that this
collaboratlve   effort will help ensure that
adequate management and program controls are
established at the outset and that past
problems are avoided.

We are also going to continue our recent
increased audit and investigative coverage of
the Unemployment  Insurance program.   In 1982,
this program was funded by approximately    21
billion dollars.   In the past, OIG has pro-
vided relatively little coverage of this
program.   During this reporting period, we
have expended considerable   resources on a
nationwide audit of the benefit payment con-
trol systems for the Unemployment Insurance
program.   While audit work is still underway,
results to date suggest strongly that there is
much room for improvement and that significant
amounts of states and the Federal Government
money could be saved.   We have initiated a
second major nationwide project on the tax
collection systems for the Unemployment
Insurance program, since we believe that they
are also vulnerable to large dollar losses.
We will also be working closely with
Unemployment Insurance program personnel
during this reporting period to identify other
potential audit issues.

                      (lli)
In our last semiannual report, we were
critical of management deficiencies in the
Office of Workers' Compensation Programs and
of leadership by the Employment Standards
Administration   in carrying out needed
improvements on a timely basis.     During the
reporting period, we have seen increased
activities by the Employment Standards Adminis-
tration management aimed at resolving parti-
cular problems and addressing other major
issues.   We are encouraged by this, but are
cautiously optimistic since much yet remains
to be done.    The nature and extent of fraud
uncovered by the OIG in this reporting period
alone dramatize the seriousness of continuing
internal control weaknesses in OWCP programs.

A matter of continuing interest to this and
other Offices of Inspector General is the
implementation   of C_4B's Circular A-I02,
Attachment P, which calls for single audits to
be conducted of all federal funds flowing to
an organization,    rather than separate grant-by-
grant auditing that occurred in the past.       The
effective implementation     of this policy is a
challenging   responsibility   for the Office of
Inspector General.     We have been assigned
audit cognlzancy by OMB for I01 of 800 state
government units and 134 out of the top 300
local governmental    units.   As the cognizant
audit organization,    we will be working with
these units of government to ensure that state
and local audits are conducted in accordance
with applicable audit standards, that the
quality of the audit process is maintained,
and that OIG and the program agencies get the
maximum use from the audits.      In this regard,
we have worked closely with the Office of
Management and Budget and the President's
Council on Integrity and Efficiency in
launching a major evaluation effort of thls

                       (iv)
new policy.   We believe that this effort
should provide early warning of any problem
areas and thus help ensure the success of the
entire program.

Two major areas of OIG accomplishments  deserve
special mention:   the President's Council on
Integrity and Efficiency Computer Matching
Project, and our investigative accomplishments
during this period.

We have had a major role in the Computer
Matching Project sponsored by the President's
Council on Integrity and Efficiency.   The
project has been co-chalred by Tom McBride and
Richard Kusserow, HHS' Inspector General.   We
believe much progress has been achieved and,
in my view, the project represents a signifi-
cant accomplishment  of the President's Council
on Integrity and Efficiency.

During the past six months, the project has
continued to pursue its overall goal of
promoting and facilitating increased use of
computer matching and related techniques to
prevent and detect fraud and overpayment in
federally-flnanced  operations.

Among the practical efforts that have been
undertaken are the following:

o An inventory of state agency computer
  matching efforts and computer software   has
  been completed and is being published.

o To facilitate interJurlsdlctlonal matching,
  representatives of two states and five
  federal agencies developed draft standard
  data elements and extraction formats and
  circulated them to states for comments and
  suggestions.

                      (v)
o The Department of Health and Human Services
  has assisted 66 state agencies in applying
  programs to upgrade the accuracy of the
  social security numbers in state data bases
  used in computer matching.

o A reference paper to assist agencies in
  applying the revised OMB Guidelines on
  computer matching has been prepared for
  distribution.

o A special task force of four state and eight
  federal members is examining and developing
  recommendations   regarding incentives and
  disincentives   for state matching activities.

Second, our investigative   accomplishments
during this reporting period have been parti-
cularly outstanding.    During the 6-month
period, our Office of Investigations,    which
investigates program fraud and employee
integrity matters, obtained I00 indictments
and 70 convictions.    This represents a I00
percent, and 133 percent increase, respec-
tively, over the same period last year.     And,
there have been increased efforts by program
agencies to recover funds and to take adminis-
trative actions.    These results are attribu-
table to many factors, including improved
coordination with prosecutive authorities   and
better case selection and management.

Results in our organized crime and labor
racketeering investigative  program have been
equally impressive.   During this period, 31
individuals were indicted and 44 convicted.
Our investigations  have included nationwide
organized crime-connected  schemes, such as the
union insurance business kickback scheme
involving the Laborers' International Union of
North America.  We have also been involved in

                      (vi)
 breaking organized crime's hold on lucrative
 industries, such as the wholesale fish market
 in New York.

 These investigative accomplishments  should,
 however, in no way be interpreted as dimin-
 ishing our need for law enforcement authority.
 The lack of this essential law enforcement
 tool has often placed our Special Agents in
 dangerous situations and has severely limited
 our ability to effectively complete
 investigations.

 It is, therefore, essential in our view that
 our Special Agents be afforded full law
 enforcement authority and that legislative
 action be taken to provide this authority.

During the period, Secretary Donovan has
continued his strong support of this office,
both in providing backing on every substantive
issue in which there may have been a disagree-
ment between the OIG and program officials and
in providing necessary support in the budget
process to implement an effective OIG program.

 Finally, the work and accomplishments   achieved
during   this reporting period reflect the strong
 leadership of Tom McBride who has just left
 Washington, D.C., to become Associate Dean of
 the Stanford Law School.    I know that OIG
employees share my view that much progress was
made during Tom's tenure as Inspector General.
He forged strong cooperative relationships
with senior officials of the Department, yet
he was always mindful of the unique role of
our office and of the need to call the shots
 as he saw them°  He was responsible for
 broadening audit and investigative  coverage of
 D0L programs and for establishing a number of
 internal OIG management improvements.   Tom was

                      (vii)
an active participant  in the President's
Council on Integrity and Efficiency and had a
major leadership role in a number of Council
projects and committees.   He will be sorely
missed.




Robert E. Magee
Acting Inspector   General




                      (viii)
                         PART I

 SIGNIFICANT PROBL_S,         ABUSES OR DEFICIENCIES,
   AND RECOMMENDATIONS        FOR CORRECTIVE ACTION




 EMPLO_ENT   STANDARDS   ADMINISTRATION

 The Employment Standards Administration   (ESA),
 through its three component offices--the Office
 of Workers' Compensation Programs (OWCP), the
 Office of Federal Contract Compliance Programs
 and the Wage and Hour Division--administers
 laws and regulations that provide workers'
 compensation to those persons injured on their
 jobs, require federal contractors and subcon-
 tractors to provide equal employment oppor-
 tunity, and set employment standards.

During this reporting period, as in prior
periods, nearly all of the audit and
investigative  effort devoted to ESA has been
in the Office of Workers' Compensation
Programs, which administers  three workers'
compensation programs through its National
Office and its District Offices.   These three
.OWCP programs are the Federal Employees
 Compensation Program, which administers  the
 Federal Employees' Compensation Act (FECA),
 that provides compensation and medical
 benefits to civilian employees of the United
 States Government who are injured on the job
 or who contract disease through on-the-job
 exposure; the Black Lung Program, which
 provides monthly payments and medical
 treatment benefits to former coal miners who
 are totally disabled as a result of
 pneumoconlosis arising from their employment
 in or around the nation's coal mines and

                         --   i   --
monthly benefits to their eligible surviving
dependents; and the Longshore and Harbor
Workers' Compensation Program, which provides
compensation and medical benefits to injured
longshore and harbor workers as well as
certain others covered by extensions of the
enabling legislation°

In our prior semiannual report, we identified
a number of serious problems in the management
and operation of OWCP programs and identified
actions to be taken by ESA that we believed
necessary to effect long-term solutions°
During this reporting period, ESA has taken
some actions to address these problems°    In a
recent review conducted by the OIG, ESA
reported that, out of 112 previously made
recommendations,  72 have been fully imple-
mented and the remaining 40 partially imple-
mentedo   While we have not verified these data,
as part of our ongoing studies, we are evalu-
ating ESA's implementation  of prior recommen-
dations in selected areas.


Further, several important task forces have
been established by ESA and some key manage-
ment appointments have been made°      In addition,
a consultant was hired on the immediate staff
of the Deputy Under Secretary for Employment
Standards to provide expert advice on manage-
ment improvement and productivity efforts
within ESAo    Finally, ESA has recently devel-
oped a critical performance standard for top
managers during Fiscal Year 1983 related to
implementation   of OIG and General Accounting
Office recommendations°     We believe that these
actions demonstrate    an increased level of
commitment to resolving    fraud and waste
problems in OWCPo




                      -2   -
However, while we are mindful that these
problems are not quickly or easily corrected,
we continue to be concerned about progress
made.   Our sense of urgency is intensified by
recent audit and investigative work which
demonstrates the serious kinds of fraud which
can occur when necessary management and
program controls are inadequate.

Following are discussions of issues which have
been previously raised.   Included are summaries
of OIG work in the area and of the status of
ESA's   implementation   of corrective   actions.

Bill Payment   System    Fraud

In previous semiannual reports, we have
described extremely serious problems identi-
fied by OIG work related to the integrity of
the FECA bill payment system.   Such problems
lncluded substantial weaknesses in data
_integrity, computer security, bill payment
 processes and bill payment controls that have
 resulted in potential duplicate payments and
 actual claimant fraud.  Yet another far more
troubling result of such significant       internal
control weaknesses is employee fraud       and
embezzlement.

As a result of our earlier investigations   of
employee embezzlements  in two OWCP district
offices described in previous semiannual
reports, we expanded audits to other district
offices and purposely limited the scope of
these reviews to the detection of employee
fraud.   In two of the other three district
offices reviewed, evidence of bill payment
fraud has surfaced, while in the third
district office_ a kick-back scheme we
investigated resulted in two indictments and
two guilty pleas.   Although several of the

                         --   3   --
investigations  are continuing in these
offices, a variety of schemes has been
uncovered, primarily related to creation of
fictitious claims or phony medical providers.
Because some fraudulent activity on the part
of employees has been uncovered in each of the
offices reviewed, we intend to expand these
reviews to more district offices.   Some of the
cases that have resulted from our audits and
investigations  and in which ESA has cooperated
and assisted are the following:

o A supervisor in the Fiscal Division of the
  Office of Workers' Compensation Programs in
  Philadelphia   was found guilty on lO counts
   of theft of government property and of
  conspiracy to defraud the United States.
   She was accused, with four other
   individuals, including two employees in her
  office, of stealing and attempting to steal
  about 569,000 from the Department by creating
  and approving false documents that resulted
  in disability compensation   checks being
  issued.

  This supervisor was recently sentenced to 20
  months imprisonment,  5 years' probation and
  was required to make restitution of 522,600.
  One of the employees, who had pled guilty to
  one count of illegal conversion of government
  funds and one count of conspiracy, was
  sentenced to 5 years' probation and ordered
  to make restitution of _4,000.   An associate,
  who also pied guilty to the same two counts,
  was sentenced to 3 years' probation and
  ordered to make restitution of 5650.    U.S.
  v. Watkins et al. (E.D. Pa.)

o Another indictment from an OIG investigation
  of OWCP's Fiscal Division in Philadelphia
  charges a former OWCP employee with 20

                     - 4 -
  counts of theft of funds.   Employed as a
  bill payer, he prepared an4 submitted fraudu-
  lent FECA bill payment cover sheets author-
  izing payment for medical services that were
  never performed.   Four associates and
  co-defendents  received payments totaling
  _236,955.   UoS. v. Thompson   et el. (E.D. Pa.)

o In Washington, D.C., a former OWCP employee
  pled guilty to one count of mail fraud,
  which involved her mailing fraudulent
  disability checks to an associate while she
  was employed in District Office 25; she was
  sentenced to 3 years' probation.   Her
  associate pled guilty to one count of
  forgery and one count of false pretenses for
  his participation  in the scheme in which he
  received five fraudulent checks totaling
  _6,213o   He was sentenced to 2 years'
  probation°   U.S. Vo Lewis and U.S.v.
  Williams (Do D.C.)

o A contact representative   in OWCP's District
  25 Office in Washington,   D.C., pled guilty
  to a two-count information charging him with
  bribery.   He had demanded and received a
  portion of disability benefits from a
  claimant's monthly allotment for allowing
  individuals to continue to obtain disability
  benefits after returning to work.    He was
  sentenced to 120 days, 2 years' probation,
  and fined _500.   A Government Printing
  Office employee, who was involved in the
  scheme, pied guilty to a one-count
  information of bribery.   We Joined the
  investigation  at the request of the FBI.
  U.S. Vo Cain and U.S.v.    Pratt (D. D.C.)

We have continued to follow up on prior OIG
recommendations,  particularly those relating
to the bill payment system.    To illustrate, as
part of a follow-up review in the Philadelphia
District Office conducted during the prior
reporting period, we identified 15 recommen-
dations from a previously-lssued    OIG study.
Despite agreement by ESA to implement most of
the recommendations,   our follow-up verifi-
cation review revealed that ESA had not fully
implemented the 15 recommendations    at the time
of our review.   However, recently, ESA advised
us that its Internal Control Unit had verified
implementation  of the OIG recommendations.
While we are not planning soon another review
of the Philadelphia District Office, we are
completing follow-up reviews of these same 15
recommendations  in the New York, Jacksonville,
and Washington,  D.C. District Offices.    Our
initial findings are that most of the 15
recommendations  are being implemented in these
district offices, however, we still feel
strongly that full implementation    of all of
the recommendations  is vitally needed.

Claimant   Fraud

Another major continuing problem is claimant
fraud.  During this 6-month reporting period,
we have continued to obtain a significant
number of indictments and convictions of
individuals illegally collecting benefits.
Many of these cases result from a project that
initially was begun in Atlanta and a year ago
expanded nationwide.  This study, described in
our prior semiannual report, was designed to
identify, among other things, instances of
claimants' unreported income, which could
result in reduced or terminated benefits.  The
Federal Employees' Compensation Program
considers the amount and sources of income
earned by claimants when setting or adjusting
long-term benefit levels.   Since the program
relies on annual self-certiflcation  of income

                      - 6 -
by claimants, the potential       for some fraud by
claimants is great.

Therefore, the OIG has devoted a relatively
high level of resources to these types of
cases.   During this period, 27 indictments and
18 convictions related to FECA claimant fraud
were obtained.   The continuing interest in
prosecuting these cases is due, in part, to
the recognition that the indefinite nature of
the continuing payments to beneficiaries on
the periodic roll makes the total potential
loss to the government over the entire period
extremely significant.    Our nationwide FECA
project, which reviewed 10,014 claimant files
and found irregularities   in 7,453 files, has
resulted in the termination or reduction in
benefits to more than 500 claimants.     If these
claimants had continued on the periodic roll,
benefits totaling almost _5 million annually
would have been paid.    While final results are
still incomplete, the total number of cases in
which benefits will be terminated or reduced
will increase.

While the specifics of the incidents differ,
the most significant problem causing over-
payment of benefits is unreported income.      In
our prior semiannual report, we discussed the
relative difficulty in detecting income from
self-employment--in  particular--without   access
to IRS income tax data.    A principal tool is
using information gathered by states or federal
agencies relating to wages paid to individuals.
Using computers to compare or match names,
addresses, social security numbers, etc.,
better assures that government benefits are
provided to only those eligible.     While some
matching could be performed against social
security wage data, these data are often not
current.   Thus, except in long term disability

                      -- 7   --
cases,   social security   data is not especially
useful   or efficient.

With respect to claimants not self-employed,
OWCP is now taking steps to match its own
records against wage history data collected
and maintained by the state agencies, which
are funded by the Department of Labor.
Although 12 states are not wage reporting
states (i.e. states in which employers
routinely report to the state the amount of
wages paid each employee), more than three-
fourths of the states do have this information
available and ultimately should have it
accessed by OWCP for this purpose.  OIG
believes this basic procedure must become a
normal and usual screening operation by OWCPo

Some examples of recent claimant fraud     cases
that illustrate the problem follow:

o A former TVA employee entered a guilty plea
  to four counts of making false statements,
  after being charged with failing to disclose
  his employment and earnings while receiving
  disability benefits.   He was sentenced to 60
  days of a 2-year sentence with the balance
  of the sentence suspended and 2 years _ proba-
  tion following his release from custody°    In
  addition, he is required to make restitution
  in the amount of 556,116, with _20,000 to be
  paid immediately and the balance within 20
  months of probation.   OWCP has established
  an overpayment to the claimant of _88,579.
  U.S.v.   Leathem (W.Do Ky.)

o A U.S. Department of Agriculture  employee
  was sentenced to i year's probation and
  fined _i,000 after pleading guilty to a two
  count criminal information charging him with
  making false statements to obtain Federal

                       -- 8   --
  Employees' Compensation Act benefits.
  Although claiming no employment or earnings,
  he was self-employed as a used car dealer
  and manager of an auto body and auto paint
  shop.   OWCP has established an overpayment
  to the claimant of _52,285.   U.S.v.   Delong
  (N.D. Ga. )

o A former TVA employee entered a plea of nolo
  contendere to an information charging him
  with one count of making false statements to
  obtain Federal Employees' Compensation Act
  benefits.   He was sentenced to i0 days in
  jail and 4 years' probation.   OWCP has
  established an overpayment to the claimant
  of 3145,067.   U.S.v.  Langley (M.D. Tenn.)

o A former Postal Service mail equipment
  handler received disability benefits from
  OWCP while gainfully employed as a custodial
  worker for the Chicago Police Department.
  He pled guilty to one count of mall fraud
  and one count of false statements.   Despite
  being 62 years old, he was sentenced to 6
  months in prison and 3 years' probation.
  U.S.v.   Glenn (N.D. IIi.)

o A Joint OIG-Postal Inspection Service
  "investigation resulted in the conviction of
  a Postal Service employee on four counts of
  mail fraud, one count of obstruction of
   criminal investigation,   and one count of
   false claims.   The charges arose from his
  failing to report income from his employment
  at the Federal Credit Union in Philadelphia
  while on total disability from the U.S. Post
   Office.   He also attempted to influence a
  witness to lle to a grand jury about his
   unreported employment.     Sentencing is
   pending a probation report.    U.S.v.  Schultz
   (E.D. Pa.)

                      - 9-
o A San Francisco claims examiner, performing
  routine checks, became suspicious while
  reviewing a case.   Rather than merely
  accepting a plausible explanation   from the
  claimant, she pursued the matter further and
  recommended referral of the case to OIG.
  Subsequent OIG investigation,   including
  undercover work, disclosed that the claimant,
  who was actively pursuing--through    the office
  of one of his UoS. Senators--a retroactive
  FECA disability payment of _I00,000, owned
  and operated a limousine service and had
  previously worked several years as a cab
  driver.   The claim itself was based on his
  employment as a naval ship painter, where he
  had allegedly contracted asbestosis, despite
  having been on the payroll only I0 weeks
  before being fired for excessive absences
  and for never even working one full week.

  The claimant was indicted and pied guilty to
  one count of making a false statement.   He
  was given a 3-year suspended sentence,
  placed on 5 years' probation and fined
  _500o  OWCP established  an overpayment to
  the claimant of _8,616o   UoSo Vo Holmes
  (N.D. Califo)

ESA has been generally cooperative with our
efforts to reduce fraud and abuse within its
programs.    In addition to referring a large
number of suspected cases to OIG for investi-
gation, ESA has provided significant staff
resources to assist us in our review of case
files.   Besides the OIG-initiated   case file
review_ as part of its own operations, ESA
annually reviews long term disability cases°
During Fiscal Year 1981, ESA reports that it
reviewed 52,000 cases and terminated or
adjusted benefits in about 9 percent of the
cases, yielding a savings of _22 million.

                     - i0 -
Medical   Provider   Fraud

Another major problem is medical provider
fraud.   Traditionally  it has been a difficult
area in which to obtain prosecutions and con-
victions, since gathering evidence is complex.
While efforts are underway by OWCP to identify
false billings, duplicate billings, and
billings for services not provided, there are
other areas, such as conflicting professional
Judgments or medical opinions, that are
extremely difficult to document adequately
enough to be able to obtain a conviction.
Simply stated, a prosecutor is often reluctant
to try a case before a judge and jury when a
conviction may depend on demonstrating    beyond
a reasonable doubt that a physician was
providing excessive or unnecessary    treatments
or services°    Despite these problems, the OIG
has made a strong effort to investigate fraud
by some medical providers.

In our prior semiannual report, we noted that
two physicians had pled guilty to fraud for
filing false claims.   During this reporting
period, we have been able to bring some of our
other ongoing investigations  of medical
providers to the indictment or conviction
stage.

o A Dallas physician was recently convicted on
  Ii counts of mail fraud and 4 counts of false
  claims in a scheme that involved a network of
  50 businesses through which he submitted
  false medical bills of about _l million to
  FECA and to various insurance companies°
  OWCP is still calculating the DOL loss, which
  is expected to be over _I00,000.  This joint
  investigation with the UoS. Postal Inspection
  Service was referred to the OIG by OWCPo
  U.S.v.   Gifford (N.D. Tex.)

                        - ii -
o In Philadelphia,  a physician was indicted on
  5 counts of filing false claims and 13
  counts of mail fraud°    A 2-year investi-
  gation by this OIG and the Postal Inspection
  Service alleges that he had verified and
  treated disabling, work-related   injuries for
  several postal employees--including    under-
  cover agents--who were not sick, but claimed
  they wanted time off for vacations or other
  reasons°   The indictment charged that the
  doctor had instructed his patients on how to
  fake injuries and how to prevent their
  supervisors from catching them.     UoSo Vo
  Gorham (E.D. Pao)

Fraud by Lawyers and Claims     Representatives   in
the Black Lung Program

Another OIG concern related to OWCP programs
is fraud by lawyers and claims represent-
atives.   This is a problem in the Black Lung
Program, because recent cases have shown that
some representatives  are accepting unauthor-
ized fees to provide assistance in filing
claims.   The law requires that fees for this
service be approved by the OWCP Deputy
Commissioner°   Some of the recent indictments
obtained   for unapproved   fees are the following:

o An attorney was indicted on nine counts of
  making false statements and eight counts of
  unapproved receipt of fees relating to forms
  he submitted to the Division of Coal Mine
  Workers' Compensation requesting fees for
  representing certain Black Lung claimants;
  the fees requested were alleged to be false°
  He had convinced the claimants to sign a
  contract for prepaid legal services°   The
  fee for these services is 25 percent of any
  lump sum Black Lung award; he collected


                      - 12 -
  substantial   unapproved fees from the
  claimants.    UoSo v. Clark (M.D. Ala.)

o An information filed against a Rock Springs,
  Wyoming, woman charged her with receiving
  compensation for assisting Black Lung
  claimants without submitting applications
  for fee approval through the Black Lung
  District Office, as required.   The OIG
  investigation  confirmed that, during 1979
  and 1980, she had received _7,758 from three
  separate Black Lung claimants in connection
  with her assistance on their claims and that
  she had not requested approval of any amount.
  She has signed a pre-trial diversion agree-
  ment, taking responsibility  for her acts and
  accepting a 1-year probation during which
  she is not to represent nor write any
  correspondence  on behalf of Black Lung
  claimants.   UoS. v. Doak (D. Wyo.)

o A man, who did paralegal work for the
  Virginia Black Lung Association, pled nolo
  contendere to eight counts of receipt of
  unauthorized fees for representation   for
  Black Lung benefit claims.   He allegedly had
  illegally charged Black Lung claimants a i0
  percent fee for representing them and then
  lied about his fees and representation of
  claimants to the grand jury.   He was sen-
  tenced to 2 years' probation and fined
  _i000, with _500 suspended.   U.S.v.  Bowman
  (W.D.Va.)

o A recent candidate for president of the
  United Mine Workers Union was indicted on 16
  counts.   Two were felony counts for making
  false statements to a DOL official regarding
  his representation  of a Black Lung claimant
  and for impersonating  a federal officer to
  get a signed statement from the claimant so

                      - 13 -
   that he could represent the claimant; 14
   were misdemeanor counts for Black Lung
   misrepresentation.    He allegedly received
   _21,000 in unauthorized   fees from Black Lung
   applicants.    U.S.v.  Carter (S.D.W.  Va.)

 Financial   Management

Three financial management  reports on ESA were
issued during the reporting period.    The first
of these was a review of OWCP's compliance
with the IRS requirement to issue a Form 1099
to providers of medical, legal, and other
services.   The Internal Revenue Code requires
that these forms recording earnings paid be
sent to both IRS and the providers so that the
appropriate tax can be calculated°    The second
report was issued following a review of the
internal control procedures and automated bill
payment system in FECA's Philadelphia District
Office.   A third report was a somewhat similar
review of internal controls and cash receipts
and receivables in eight other OWCP District
Offices.

 Collectively,  and also individually,   these
 reports are evidence of systemic problems in
 OWCP's financial management   systems and
 practices and, they reaffirm many of the
 identical problems identified during three
 previous loss vulnerability   assessments of
FECA District Offices and the Black Lung
 benefit payment systems and operations.

The purpose of the first study, regarding
OWCP's Form 1099 reporting practices, was to
determine if OWCP was complying with the IRS
requirement that Form i099's be issued on all
medical, legal or other service providers paid
more than _600 during a calendar year and if
the information was accurate and complete.

                          - 14 -
The review found that many of the forms issued
by the FECA and Black Lung program offices
were inaccurate and that the Longshore and
Harborworkers  Program did not issue the forms,
as required.   The audit report issued to ESA
recommended that OWCP:

  --   develop and implement guidelines to
       ensure that all OWCP payments are
       included on the Form i099's, as required
       by IRS;

  --   require the FECA and Black Lung provider
       files data be verified to ensure that
       there is only one file per provider;

  --   require that legal providers be issued a
       Form 1099, as appropriate, and that the
       Black Lung computerized payment system
       issue Form i099's, as required.

ESA was aware of many of the problems and was
in general agreement with the findings for the
period covered by the report--the most recent
year for which data were available.   Since the
review, ESA has undertaken actions to correct
many of the deficiencies noted.

Of the other two financial management reports
on ESA, the first focused on internal control
procedures within the FECA Philadelphia
District Office.    This report was issued
separately, since--as was discussed pre-
viously--two  separate embezzlement  schemes
totaling more than _300,000 were involved.
Except for that situation, and the fact that
the study in the Philadelphia District Office
also included a review of the automated bill
payment systems, the second report on the
eight other OWCP District Offices did not
markedly differ from the kinds of findings--if

                     - 15 -
not the degree--as      those in the Philadelphia
District Office.

In general, the studies found that there were
inadequate controls to safeguard assets
against fraud.   Problems were found in the
areas of cash receipts, accounts receivable,
separation of duties, the automated bill
payment systems, and the lack of supervisory
oversight during the time cash is received.

Our recommendations      to correct   the identified
weaknesses   included   the following:

  --   handling of cash     receipts be limited to
       a few officially     designated employees;

  --   cash receipts be secured       and deposited
       on a timely basis;

  --   mail opening be carefully supervised,
       daily logs be maintained, and cash
       transfer receipts be utilized for
       intra-office transactions;

  --   separation   of duties    be maintained;

  --   cash receipts and check cancellations  be
       prompt, with monthly reconciliations  to
       accounting records; and

  --   accounts receivable reports be
       accurately prepared, and detailed
       accounting reports be reconciled and
       corrected.

In the report on the Philadelphia District
Office, recommendations  relating to the
automated bill paying system were also made,
including that the district office should:


                        - 16 -
  --     reestablish        procedures          for    supervisory
         approval  of bills in excess   of the bill
         payment  clerk's  authority  and require
         that only original    bills be accepted  for
         payment;


  --     establish   adequate            internal       control
         procedures;


  --     discontinue   utilizing  contractor
         personnel   to process  bills and restrict
         their activities    to bill keying;


  --     require   claim examiner               approval     in order
         to change   a case file               status;


  --     institute    procedures    to prevent      bill
         payment    clerks   from obtaining      computer
         passwords,     thereby   limiting    access    to
         the automated      payment   system;    and

  --     adhere   to the i0 percent   sample
         requirement   for verification    of                bills
         from medical   providers.


ESA    was in general        agreement          with the findings
and    recommendations        contained          in these two
re_orts   and has indicated    that many of the
recommendations   have been implemented.       We
will be carefully   monitoring     ESA's implemen-
tation   efforts.


Containment      of Medical         Costs


This    area   has   been    one    of       intense
Congressional     attention    as a result    of both
perceived   weaknesses     in controlling     costs and
the potential     for significant     savings.     Under
the Federal    Employees',     Black Lung, and
Longshore   and Harbor     Workers   Compensation
Programs,    payment   of certain    fees is

                              -17        -
authorized to physicians, hospitals, clinics
and other medical service providers for
diagnosis and treatment of covered injuries
and occupational diseases.   Historically, as a
result of inadequate controls, these programs
have been relatively easy prey to abuse and
fraud by unscrupulous medical providers and
claimants.

One preliminary  step toward improvement, which
has been previously recommended by the OIG, is
to develop and implement automated fee sched-
ules of normal and customary medical fees
against which medical costs billed to the
programs can be evaluated.

In a letter dated August 30, 1982, to Senator
William Roth, Chairman of the Permanent
Subcommittee on Investigations and the
Committee on Governmental Affairs, Secretary
Donovan stated that the automated medical fee
schedule would be implemented in November
1982.   ESA has since informed OIG that the
proposed regulations will be published in
November and that, during the comment period,
OWCP will test the proposed fee schedule.
After reviewing the comments received and the
test results, final regulations will be
published and a schedule implemented before
the end of March 1983.   OIG continues to
believe a fee schedule can be a valuable tool
in helping   control   medical   costs.

Related to the fee schedule is an ongoing
pilot program in one district office whereby
hospital costs for drugs, intravenous and
medical supplies are automatically  being
screened for the amount billed and the
appropriateness   of the product for the
condition.    Data are not yet available from
ESA on this effort, nor has this new pilot

                        - 18 -
program been reviewed   by the OIG, so we are
not now in a position   to provide an evaluation
of it.

ESA reports another effort to control medical
costs through a joint ESA/Postal Service
project to ensure early reemployment for
employees who have been on FECA compensation
and to emphasize recovery of payments from
third parties who are liable for the injury of
a covered employee.    With regard to reemploy-
ment of FECA claimants, in our prior semiannual
report we discussed serious problems relating
to most agencies' efforts to reemploy claimants
or take other measures to help contain rapidly
escalating costs.   As part of that discussion,
we described an inter-agency study of the role
of employing agencies in the operation of the
Federal Employees' Compensation Program.     That
inter-agency study, under the auspices of the
President's Council on Integrity and
Efficiency, identified several needed
legislative changes, including clearer
delineation of responsibility   and authority
for the operation of some aspects of the
Federal Employees' Compensation Program and
recommendations  for alternative funding of the
program to provide a greater incentive to many
employing agencies to control costs.    Other
recommendations  included the allocation of
qualified staff and establishment  of agency
management systems to better implement effec-
tive injury compensation programs so that
claimants can be expeditiously  returned to
work.


In response to the May i0, 1982, report of the
inter-agency working group and in support of a
recommendation by the President's   Council on
Integrity and Efficiency,  Secretary Donovan
announced an inter-agency task force on

                     - 19 -
September 13, 1982.   This task force is
chaired by the Deputy Under Secretary for
Employment Standards, and is responsible for
following up on the inter-agency study's
recommendations  and developing systems
improvements and needed administrative    reforms.
Representatives  from the Department of Defense,
Department of Transportation,   the Office of
Management and Budget, the Office of Personnel
Management,  and the U.So Postal Service have
been invited to participate   on the task force°
The first meeting has been scheduled and we
are hopeful that the task force can make rapid
progress in devising and implementing the
needed improvements°

Debarment

Related   to the overall   cost containment   issue
is the capability to identify and exclude from
participation  in government benefit programs
providers of medical services who have engaged
in misconduct.

ESA reports that it has embarked on a project
to review and verify its data on medical
providers.   This system includes data provided
by the Health Care Financing Administration     on
providers excluded--or  reinstated after
previously being excluded--from   participation
in the Medicare and Medicaid programs, in
addition to including lists provided by the
Federation of Medical Boards of licensing
actions against medical providers°     If fully
implemented, these measures should help to
flag providers who have had previous problems°
ESA also reports the development of utili-
zation reports that provide a method to
evaluate provider treatment and billing
patterns that may indicate problems or
suspicious patterns.

                      - 20 -
OIG has previously pushed for debarment of
medical providers who have engaged in illegal
activities so that they cannot continue to
bill the program.   The FECA legislative
package forwarded to the Congress during the
last session, but which did not come to a
vote, contained debarment language supported
by the OIGo   With regard to existing FECA
legislation, the Department's Office of the
Solicitor initially interpreted it as not
granting ESA this debarment authority°    OIG,
however, strongly believed that providers
could be prevented from being compensated
under the general rulemaking authority granted
under FECA.   After further review, the Office
of the Solicitor concluded that the statute
 did authorize ESA to issue such regulations.
 An option paper and the proposed regulations
 are now being written by ESA to debar medical
 providers under certain specific circum-
 stances.    At the end of this reporting period,
 ESA had not yet completed the drafting of
 these regulations°     ESA is anticipating
 publishing the draft regulations in about
 December 1982.    This action--particularly   if
 coupled with government-wide    debarment from
 participation   in any federal program--could
substantially    increase the consequences to the
 provider for engaging in illegal activity,
 thereby providing an additional measure of
 deterrence.




                     - 21 -
_PLO_MENT      AND   TRAINING     ADMINISTRATION


The Employment   and Training     Administration
(ETA) budget   authority    for Fiscal    Year 1982
was _25 billion,    including    _20.5 billion    for
the Unemployment    Insurance    Trust Fund and _3
billion  for the Comprehensive       Employment  and
Training  Act (CETA)    program.


The nature     of ETA-related      OIG work during      this
reporting    period    reflects    the changes    occurring
within   the agency,     particularly      the transition
from the CETA grant        program    to implementation
of new job training        legislation.      We have given
attention    to previously      identified    issues,    such
as audit    resolution     and ineligible     partici-
pants.     We have focused      on other issues      of
particular     concern   in a transition      period,
such as program      close-out     operations    and
end-of-year     spending°      And, we have begun work
in areas    that we believe      have received
inadequate     OIG   attention     in   the   past.
Finally,   we are     looking  ahead to areas of
future   concern,     namely  the implementation       of
grantee-procured       single  audits.


Overall,    our sense is that improvements          have
been made in ETA financial         management    and
procurement     controls.     Nonetheless,    there are
still   problems    that need to be addressed        and
continued    strong   commitment    to improving
financial    and program    integrity    needs to be
maintained     in current   ETA programs     and built
into   new   programs°


The two major   reviews   conducted    during this
reporting  period--concerning      audit resolution
and debt collection,     and CETA property--were
issued   in draft form to ETA at the very close
of this reporting    period°   We have not yet
received   comments  from ETA and, thus, do not

                           - 22   -
have the benefit of agency views and possible
explanations of our findings.    Thus, only
brief summaries are provided of our work in
these areas.   Detailed discussions of the
findings and recommendations contained in
subsequent final reports will be included in
our next semiannual report.


Audit   Resolution   And Debt       Collection

In past semiannual reports, we have described
the joint OIG-ETA actions taken to resolve the
backlog of audit reports over 6 months old and
to install an effective and permanent system
for audit resolution.   Over _400 million has
been resolved during the past IB months.
While this represents a major accomplishment,
it has raised concerns about problems that may
have resulted from the pressure to resolve the
large backlog of audit findings in such a
short time.

To ensure the quality of the audit resolution
process, we initiated a review of ETA's audit
resolution and debt collection efforts to
date.   In this review, we focused on whether
ETA's determinations  of disallowed costs
adequately protected the Federal Government's
interests during a period of intense pressures
by management  to resolve all outstanding
audits, and whether adequate attention has
been given to the collection of those monies
determined to be due the Department.

Specific   objectives   were    to:

  - evaluate the adequacy of agency              policies
    and procedures related to audit              resolution
    and debt collection,


                        -23     -
   - determine      if audit        exceptions           were
     properly      resolved,

   - determine      if     debt    collection
        responsibilities          were       properly     carried
        out, and


   - ascertain    the cause(s)    for any
     deficiencies    noted   in audit  resolution                   and
     debt collection     activities.


Review     work was performed             in the Regional
Offices     and the National             Office  of ETA and
covered     audit  resolution            and debt collection
activities     during   the period   October    i, 1980,
to March    31, 1982.     Our review    of the quality
of findings     and determination      was limited    to a
sample   of 50 reports      resolved   in the Regional
Offices    and 31 reports     resolved    by the
National    Office    of ETA°


Our review       shows that, while ETA has initiated
efforts  to      address deficiencies in its audit
resolution       and debt     collection           practices,
inadequate       financial     management           systems   and
lack of aggressive           action  continue to hamper
the collection   of         funds due the Department.
Our review    identified    specific    problems    in the
areas   of appealed    grant officer     decisions,
inadequate    debt collection      information,
policies   concerning     interest   charges    on
appealed   debts,    and lack of sufficiently
aggressive    action   to follow    up on outstanding
delinquent    claims.


Since     this   review    was    completed,            ETA   has
reported  a significant    improvement     in its
ability  to track debt collection       actions    as
well as its actual    debt collection      perfor-
mance.   ETA established    an automated      manage-
ment information   system   which   tracks    each

                              -    24    -
O

discrete   step in the debt collection      process.
The primary     objective  of the system   is to
improve   the timeliness    of needed  debt collec-
tion actions.       Since the system  was begun in
May 1982,    ETA has improved   the timeliness
percentage     on debt collection   steps under its
control    from 32 percent    to 91 percent.   OMB
has asked     for documentation   of the information
system  for       possible   use by other agencies.
ETA's  debt       collection    results have improved
dramatically.      In       Fiscal    Year    1980, debts
collected    totaled        almost    _5.9    million;  in
Fiscal   Year 1981,   they totaled                 _14.1 million;
and, in Fiscal    Year 1982, over                  _23 million  was
collected°


CETA    Property

One    of   our   major    concerns       during     CETA
close-out    operations        is safeguarding           the
Federal   Government's         investment   in         CETA
property.   This          is particularly           critical  due
to the reduction           in the number           of CETA prime
sponsors      and   subgrantees.

Prior   OIG audits  and management  reviews                    have
concluded   that grantees   have not always
established    all of the property  records                    and
acco_ntlng        controls  required         by     U.S.    property
regulations.          For example:


o In response    to a request     for listings    of all
  property   purchased    with CETA funds,     prime
  sponsors   in the San Francisco      Region
  submitted   inventories     totaling   _5.2
  million.    However,    regional   personnel
  advised   us that a computerized       matching   of
    prime   sponsors'   requests    and regional
    approvals    to purchase    equipment   revealed
    over _i million     in property    not listed    on
    the submitted     inventories.


                              - 25    -
o An audit of the Inland Manpower Association
  in San Bernardino,  California, disclosed
  that a computer system purchased for
  _276,000 and ii Apple computers valued at
  _43,000 were not listed on the prime
  sponsor's own inventory records.

o A recent audit   of the Lowell   Consortium   in
  Lowell, Massachusetts,   recommended that the
  grantee properly tag and enter into the
  property record system all equipment
  purchased with grant funds.     The report also
  questioned a subgrantee's purchase of
  _i,045,489 in equipment, invoiced to the
  Lowell Consortium at _1,459,043, repre-
  senting a _413,554 mark-up over cost.      The
  report stated that "the subgrantee did not
  follow any standard procurement policies in
  acquiring the equipment.    Much of the
  equipment was delivered during the latter
  part of the contract and some items of
  equipment were delivered subsequent to the
  end date of the contract.    A substantial
  portion of the equipment was rarely used and
  some items of equipment have never been
  utilized.   In addition, it was noted that
  some of the equipment remains in the
  original shipping boxes and has never been
  assembled."

During this reporting period, we completed a
survey of ETA's management of the Department's
investment in property purchased with CETA
funds.   The purpose of the survey was to
evaluate implementation  of ETA policies and
procedures to provide accountability  and
control over this investment.   Review work was
performed at the ETA National Office and the
Boston and San Francisco Regional Offices.   We
believe that serious property accountability
problems exist.  These are due, in part, to

                     - 26 -
ETA's reliance on grantee recordkeeping
systems which, according to ETA, is based on
its interpretation   of OMB Circular A-102,
Attachment N, concerning property management
standards for grants-in-aid   to state and local
governments.   Especially due to the timeliness
of this issue, we will carefully evaluate
ETA's comments on our survey results and
closely monitor implementation    of corrective
actions.   Also, we are planning to expand the
survey to determine the disposition of certain
property at selected CETA grantees.

CETA   Ineligibles

 In past semiannual reports, we have noted that
 one of the most prevalent problems in the CETA
 program has been the enrollment of ineligible
 participants.   There are signs that this
_problem has become somewhat less prevalent.

An audit performed four years ago concluded
that 11.25 percent of the participants sampled
were either ineligible or that there was
insufficient information available to permit
determination  of their eligibility.  By
comparison, our review of eligibility
procedures and practices used in the Dallas
Region (Region VI prime sponsors) completed
during this reporting period showed an overall
ineligible rate of 4.2 percent.

However, individual rates for ineligibles for
prime sponsors ranged from 0 percent to 21.4
percent.   The primary causes of the problem in
Region VI are that prime sponsors enroll
participants after the period of eligibility
has passed and that participants provide
incorrect information on their employment
history.   (CETA legislation and regulations


                     - 27 -
require        that participants           be enrolled      within
45 days        of the application           date°)


We     recommended     that    all    applications        note     that
they     are    effective     until    45    days   after    the
date of the eligibility     determination.     We
also recommended   that the SESA's     be contacted
to eliminate   any obstacles    to obtaining   a
participant's     wage history,    and to assure      that
wage histories     obtained   during   the quarterly
verification     of applications     have been updated
with the prior     quarter's   wage history.       This
action   alone might    have lowered     the
ineligibile    rate of the cases we sampled         by 25
percent°     We hope that an increased       under-
standing    of the causes    of the problem     of
ineligible    participants    will help the
Department    build sufficient     controls   into the
new program    to prevent    its recurrence.


CETA     Investigations


As in our last semiannual       reporting    period,
CETA embezzlement    cases continued       to comprise
the majority    of ETA-related     work conducted     by
our Office   of Investigations.        Aside from the
immediate   need to pursue     appropriate     criminal
and civil   remedies   in the specific      instances
involved,   we believe   that these cases       raise
the issue        of adequate     program oversight   and
financial        controls.      We are hopeful  that
attention   to this issue during     the development
of job training    regulations   will help reduce
the possibility    of embezzlement    in the new
program°


The following    are         among    the   most    significant
of these  cases:


o A    former     assistant     director       of   the   Adams
     County     Employment     and    Training      Division       in

                               - 28    -
  Colorado pled guilty to one count of theft
  of CETA funds and one count of filing a
  false income tax return.   Recently, she was
  sentenced to serve 6 months in prison
  followed by 5 years' probation.    The
  embezzlement was discovered during an audit
  of federal funds by theDepartment    of Health
  and Human Services.   Our investigation found
  that since March 1975, the Adams County
  assistant director had endorsed and
  deposited into a personal account about 800
  checks totaling over _300,000.   The County
  has filed a civil suit in an attempt to
  recover the stolen money.   The IRS joined
  the investigation to review the income tax
  evasion violations.  U.S.v.   Paiz (D. Colo.)

o Operators of a temporary labor contracting
  service were indicted for conspiring to
  defraud, submitting false statements, and
  fraudulently obtaining _129,000 in CETA
  funds.   The service supplied professional
  engineers and support personnel to companies
  in the Southeast.    The operators falsely
  claimed to provide classroom instruction to
  their employees.    U.S.v.  Sundsted and
  Killlngsworth    (N.D. Ga.)

o A former employee of the Negro Trade Union
  Leadership Council (NTULC) and an associate
  pled guilty in the Court of Common Pleas,
  Philadelphia,  Pennsylvania, to embezzling
  approximately  _70,000 in CETA funds from
  NTULC.   NTULC receives funds from several
  federal and state agencies, including
  approximately  _900,000 from the Department
  of Labor.   An audit by a CPA firm (M.D.
  Oppenheim and Company) disclosed in excess
  of one million dollars in questioned
  expenditures, with additional information
  indicating some payroll fraud.   Because of

                    - 29 -
  lack of proper recordkeeping, the voluminous
  number of bank accounts, and number of state
  and federal agencies involved, it was agreed
  that a special fraud analysis would be
  conducted by M.D. Oppenheim and Company and
  would be paid for jointly by the agencies
  who had contributed funds to NTULCo   U.S. Vo
  Myers and Fluellen (E.D. Pa.)

o A contractor with the Clayton County CETA
  Program was indicted on five counts of
  making false statements and ten counts of
  embezzlement of CETA funds.   The contract
  was for the provision of classroom and
  on-the-job training to 20 participants.    Our
  investigation alleged that, from December
  1979 to April 1980, some of the invoices
  submitted for reimbursement of _41,435 were
  false, and 18 checks totaling about _18,000
  were written by the contractor for non-CETA
  purposes.   These checks were payments to the
  contractor and to individuals and businesses
  to whom this individual personally owed
  money, for business expenses not related to
  the CETA contract, and to make restitution
  on a bad check charge that had resulted in
  the contractor's arrest and sentencing.
  U.S.v.   Watts (N.D. Ga.)

Increased   Job Corps Audits

This office had planned to increase audit
coverage of Job Corps centers during Fiscal
Year 1983.   However, in recognition of growing
evidence of the need for greater audit and
investigative attention to this area, OIG and
ETA agreed that the audit effort should be
accelerated.   A special CETA Audit Task Force
composed of OIG and ETA staff members was
recently established   to expedite audit
coverage of Job Corps and other national

                      - 30 -
programs.   To date, contracts have been let to
CPA firms to provide audit coverage of
approximately  _i billion that has been
provided to private contractors to operate 72
Job Corps centers.   And, other contracts are
being executed to audit Job Corps program
support contractors.    Future plans call for
audits of the Job Corps centers operated by
the Departments of Agriculture and Interior.




                    - 31 -
LABOR-MANAGEMENT   SERVICES    ADMINISTRATION

The Department v s Labor-Management  Services
Administration   (LMSA) directs programs to
assist and improve labor management relations
and administers a number of employee protection
and union-management    reporting laws.

Among these laws is the Employee Retirement
Income Security Act of 1974 (ERISA), which was
enacted to protect pension and other benefits
of workers in private industry by requiring
employers to disclose and report certain
information to beneficiaries  and by estab-
lishing standards of conduct for fiduciaries
of employee benefit plans.

The legislative history shows that the
Congress expected the Department of Labor to
establish a strong ERISA enforcement and
investigative  program.  Within the Department,
LMSA's Pension and Welfare Benefit Program
(PWBP) is responsible for administering   the
ERISA enforcement program.

Several converging factors led to the
establishment  of a Joint OIG-LMSA task force
to conduct an evaluation of the enforcement of
ERISA's civil and criminal provisions.    Since
the passage of ERISA, there has been continuing
Congressional  concern about the quality of
ERISA enforcement.    During a January 26, 1982,
hearing before the Senate Labor Subcommittee,
Secretary Donovan expressed his commitment to
effective ERISA enforcement and his intent to
establish an internal group to identify
management problems and suggested solutions.

The task force was established      in March    of
1982; and, during the course of the study, 50
interviews were conducted with OIG and LMSA

                      - 32 -
field   and National    Office   personnel,                 148 PWBP
enforcement     files were   reviewed,    and               sub-
stantial    documentation    was collected.                    The
report,     issued      on    July   15,      1982,   discusses       the
task force's    findings  and identifies    71
recommendations     for corrective  action.


Key issues   covered   in the report,                  along     with
major   task force   recommendations,                  are
discussed   below.


- Enforcement        Structure          and    Staffing

  The task force  concluded                   that the current
  IMSA National  Office  and                  field structure         and
  staffing    pattern    have resulted     in conflicting
  roles   and responsibilities,        an excessive
  case review     process,    and an imbalance     between
  field managerial/supervlsory          positions    and
  investigative      positions.     The report    outlines
  a number    of alternative      organizational     struc-
  tures,   recommends     certain   ways to increase
  the     number   of    field investigative               positions,
  and     recommends      a close examination               of
  existing       National       Office        staff   responsi-
  bilitieso


- Enforcement        Policy

 •The     task   force       reported        a consensus       that
  current   IMSA enforcement     policy   is vague,
  ambiguous    and incomplete    and does not promote
  a balanced    enforcement   program.      The report
  recommends    that enforcement     policy    for ERISA
  be completely          reviewed    and republished with
  a view towards          broadening    the mix of ERISA
  plans   covered,   greater  decentralization     of
  litigation,     and a more aggressive     criminal
  violation    detection   and case processing
  program°



                                - 33     -
-   Case   Management

    Serious   weaknesses   were noted   by the           task
    force   in this area.     They included
    insufficient    investigative   follow-up            on
    leads   related   to criminal  violations,
    inadequate    tracking    of cases          referred  and
    investigative     accomplishments,            and excessive
    delays  in Office       of Solicitor    actions   on
    cases  referred.        Various   policy,   management
    and coordination        recommendations     were made
    to address   these      deficiencies.


- Litigation         Strategy

    The task force  identified   a number  of ways
    in which  LMSA could more effectively    protect
    the financial  integrity   of employee  benefit
    plans  and recover   plan assets   lost as a
    result  of ERISA   violations.    A more aggres-
    sive,  comprehensive    and decentralized   lltlga-
    tlon strategy;     greater   consideration    of
    civil   penalties;   and increased     follow-up            to
    ensure   that violators    fully carry out
    corrective    action   with respect    to ERISA
    violations    were among    the recommendations
    made.


- PWBP     External     Relationships

    A number    of    deficiencies       were   noted   in    the
    effectiveness    of PWBP's  working   relation-
    ships with the Department's      Office   of the
    Solicitor    and the Office  of Inspector
    General,   the IRS and the FBI.      A number   of
    recommendations    were made to improve
    coordination,      including   revision    of formal
    agreements     and policies,    better   communi-
    cations    and exchange     of information,     more
    effective     referral   practices,    and clari-
    fication    of litigation     decision    authority.

                                - 34 -
Other findings and recommendations  in the
report concern training, information systems,
planning and case targeting, and annual ERISA
reports.

The findings and recommendations of the task
force are now under study by the Department.




                    - 35 -
                         PART II

             SUMMARY   OF OIG ACTIVITIES




OFFICE   OF INVESTIGATIONS

Between April I and September 30, 1982, we
opened 269 cases and closed 324. We referred
92 cases to the Department of Justice or other
authorities  for prosecution.  In addition, 74
cases were referred to DOL agencies for admin-
istrative action that included termination of
employment   for 23 individuals    and suspensions
for 7.

During this period, i00 individuals or entities
were indicted and 70 convicted based on our
investigations.  A breakdown of investigative
case activity is shown on the following page.

Fines, recoveries, and collection actions
resulting from our investigations  during this
period totaled about _1,497,320.   As a result
of our investigative recommendations  or
actions, claimant benefits that were terminated
or reduced during this period resulted in a
yearly savings of _1,960,896.

Some significant cases were discussed      in Part
I. Additional examples follow.

Employment   Standards    Administration

o A defendant from Renton, Washington, pled
  guilty to one count of fraudulently receiving
  temporary total disability under the
  Longshoremen's and Harbor Workers _
  Compensation Act.  An information had been

                         - 36 -
                       S_I_MARY 0U INVESTIGATIVE ACTIVITY
                         April 1 - September 30, 1982


                                  Cases        Cases    Individuals   Individuals
Agency                            Opened       Closed     Indicted     Convicted

Bureau of Labor
  Statistics                          3            3           3             3

Employment  Standards
  Adm/nlstration                   126          148          46            31

Employment and Training
  Administration                   105          106          47            28

Labor-Management       Services
  Administration                      3           6           -              -

_ine Safety and Health
  Administration                      2          17           I              6

Office of the Assistant
   Secretary  for Admin-
   istration  and
   Management                        1            4            1             1

Occupational    Safety     and
   Health    Administration           7          19            -             -

Office of Inspector
   General                            6           3           -              -

Office of the
   Secretary                         6            5           -              -

Office of the Solicitor              3            2

_ultiple   Agencies/
     Programs                        7           II           2              I

    TOTALS                         269     '    324        100             70




                                    - 37-
  filed   against   him after an investigation
  disclosed    that, during     the time he received
  about   _30,374   in compensation     and had filed
  forms   attesting    that he had not been gain-
  fully   employed   during    the period    of his
  disability,     he had, in fact, been gainfully
  employed    by the Boeing     Company   and earned
  _53,000    in wages.     U.S. v. Mitchell     (W.D.
  Wash. )


o A U.S. Army employee       was found guilty   of
  making   false   statements   and claims   and of
  mail fraud     relating   to his claim of a work-
  related   disability    for which he received
  _67,000   in FECA benefits      since 1976.   The
  man, who was self-employed        as an auto
  mechanic   in Stafford,     Virginia  during  the
  period   of claimed    disability,    received   a
  1-year   suspended    sentence,    3 years V proba-
  tion,   fined   _12,500,   and ordered    to repay
  _Ii,400.      U.S.v.   Heflin   (E.D. Va.)


o An investigation      of a Veterans    Administration
  employee    from Beaverton,    Oregon,   who sus-
  tained   an on-the-job    back strain     in 1978,
  found   that the employee     was no longer
  disabled.      She was regularly    participating
  in numerous     sports.   Her FECA disability
  compensation     was reduced   from _i,028     every
  four weeks     to _310o   In a separate     case,
  OWCP terminated  benefits  to her husband,
  also a VA employee   who sustained  a back
  injury.   He is appealing  the decision.


o A postal    clerk was indicted      on 18 counts     of
  making   false   statements    to receive    federal
  disability     compensation.      While on disability
  leave,   she allegedly     worked   as a nurse in
  the New York State Kingsboro          Psychiatric
  Center   in Brooklyn.      She had originally
  claimed    a job-related     back injury    in November

                        -   38 -
  1975 and recurrences on seven subsequent
  occasions, which resulted in periodic
  absences from work up to June 1981 with com-
  pensation totaling _39,500o    During this
  period she allegedly attended nursing school
  and worked as a Licensed Practical Nurse.
  She also collected over _i,000 in compen-
  sation for job-related injuries while
  allegedly employed by the Kingsboro
  Hospital.  U.S.v.   Vaughn (S.D.N.Y.)

o The owner    of Kosmos Ltd.,     Painting       of San
  Francisco,    who had contracts      with     the
  Federal    Government   in northern      California,
  was sentenced to 5 years ° probation, 50
  hours of community service, fined _i,000,
  and debarred for 5 years from Federal Govern-
  ment contracts.       He pled guilty to an
  information charge of false demands against
  the government.       This charge resulted when
  he presented the U.S. Navy with falsified
  signed certified payrolls.          He had not been
  paying his employees the prevailing wage
  rates required under Davis-Bacon            provisions.
  When a compliance officer from the Wage and
  Hour Division requested records, he issued
  non-negotiable      checks on an empty bank
  account, had the employees endorse the
  checks, paid them cash far below the required
  rates, and presented copies of the fraudulent
  checks to the Wage and Hour Division.                The
  compliance officer referred the investi-
  gation to the OIG.        U.So v. Tripousis (N.D.
  Calif.)

Employment   and Training     Administration

o The director of the Somerville-Cambrldge
  Economic Opportunity Committee (SCEOC) in
  Massachusetts,  was sentenced for embezzle-
  ment of government funds to a 3-year

                         - 39 -
  suspended sentence, 5 years _ probation and
  directed to make full restitution of _33,840°
  He was accused of stealing over _36,000 from
  various SCEOC accounts from July to December
  1980 to support his cocaine habit.    SCEOC
  received over _I0 million from several
  federal agencies,   including   the Department
  of Labor°  U.S.v.    Sullivan   (Do Mass.)

o A Chicago YMCA project director and the
  director of program operations for the
  Mayor*s Office for Senior Citizens and the
  Handicapped were indicted on one count of
  conspiracy and five counts of theft of CETA
  funds.   The investigation, which resulted
   from a complaint from officials of the
   Chicago Metropolitan  YMCA, alleges that the
  YMCA project director improperly obtained
  over _4,900 in CETA funds through theft and
  negotiation of participant payroll checks,
  and that the other defendant assisted her in
  the forgery of payee endorsements and the
  negotiation of these checks.   UoS. v.
  Degonla and Hamilton (N°Do Iiio)

o Four officials of Communities United for
  Actlon--the executive director, the fiscal
  officer, the head bookkeeper, and the
  program planning offlcer--were  indicted on
  one count of conspiracy and five counts of
  theft of CETA funds.   During their employ-
  ment by the Taylor, Michigan, organization,
  which is a subgrantee of the Wayne County
  Office of Manpower in Detroit, the four
  former officials allegedly participated In a
  payroll padding scheme°   From October to
  December 1979, about _6,480 of CETA funds
  were used in possible illegal pay raises for
  themselves and in participant wages that
  were issued to them when they slgned up as
  participants using variations of their names

                      - 40 -
 and false social    security   numbers.   U.S.v.
  Conyers   et al. (E.D. Mich.)

o A 15-count indictment has charged 12 CETA
  participants and employees of Reinforcing
  Steel Placers, and the company with making
  false statements, embezzlement of CETA funds,
  and knowingly hiring ineligible individuals.

 In 1979, an officer of the company, acting
 on behalf of the company, contracted with
 the Association  of Employment Opportunities
 in Charleston, a contractor under the South
 Carolina Office of the Governor, to provide
 on-the-Job training.    Subsequent contracts
 were entered into between the two parties in
 January and April 1980.    Allegedly at the
 officer's direction, nine of the indivl-
 duals--all of Pembroke, North Carolina--
 traveled to South Carolina and falsely stated
 that they were residents of South Carolina
 in order to enroll in the CETA program.      By
 so doing, they deprived South Carolina of
 funds intended, targeted and designed solely
 for its residents.   Another company official
 and an employee were also indicted.     U.S.v.
 Reinforcing Steel Placers et al. (D. S.C.)

o A federal representative with ETA's Indian
  Programs in Washington, D.C., pled guilty to
  one count of extortion for soliciting sexual
  favors from a CETA grant director in the Fond
  Du Lac Indian Reservation in Cloquet,
  Minnesota.  U.S.v.   Whitman (W.D. Mo.)

o A defendant pied guilty in Kansas City,
  Kansas, to making false statements in
  connection with his receipt of over _3,000
  in Trade ReadJustment Act and Unemployment
  Insurance payments from the State of
  Missouri.  He was sentenced to a 3-year

                      - 41 -
  suspended sentence, a 3-year probation, and
  ordered to make full restitution to the
  state.   He had been working as a roofer
  during the year he reported himself as
  unemployed.   UoS. Vo Pier (WoDo MOo)

o A former fiscal officer of the Organization
  for the Forgotten American in Klamath Falls,
  Oregon, was indicted on 17 counts of embez-
  zlement of CETA funds.   While employed by the
  organlzatlon   from February through October
  1981, she allegedly embezzled _17,714,
  including _13,194 in CETA funds, by typing
  in legitimate vendors v names as payees on the
  organlzatlonWs   checks, having the organlza-
  tlo_ s administrator    sign the checks, and
  then removing the vendor_     names and re-
  placing them with hers°     U.S. Vo Buck (D.
  Ore.)

Mine   Safety   and Health   Administration

o A former MSHA inspector was indicted in
  Birmingham, Alabama, for bribery.   Between
  September and November 1981, he allegedly
  solicited and accepted gifts, including
  _540, from two different coal operators in
  the Birmingham area.   After he became aware
  of the allegations  against him, he resigned
  from MSHAo   U.So v. Price (MoD. Alao)

Occupational     Safety and Health   Administration

o Because they used improper hiring practices,
  two OSHA Regional Administrators  were pre-
  sented with a proposal to remove them from
  the SES and their positions as Regional
  Administrators.  They were offered reinstate-
  ment to GM-13 positions in Washington, D.C.
  One chose to retire; the other Is appealing
  the Agency's decision°

                        - 42 -
OFFICE    OF AUDIT

During this reporting period, 354 reports on
the Department's   grant, contract, and program
activities were issued.    Of these, 84 were
performed by OIG auditors; 129 by contract
auditors under OIG's direct supervision;    27 by
state and local government auditors; 14 were
grantee-procured   single audits conducted under
OMB Circular A-I02, Attachment P provisions;
 90 were grantee-procured  audits conducted under
 41 CFR 29.70; and I0 were conducted by other
 federal audit agencies.   The table below
 summarizes our activity by program.    It is fol-
 lowed by discussion of the major external audit
 activities by program; significant internal
 audits are covered in Part I of this report.


                     SUNMARY OF AUDIT            ACTIVITY      OF OOL PROGRAN5

                               Al_:il   I   -    Sesteer, er    _0,    1982

                                                Reposes        Amoun ¢ or        GzIf_¢/Con¢_lc_
                                                ISsued         Exceot lcnsi      Amount AuClted

     Emoloymen¢     an" Ttilntng
       AomlnJs f;tllt ion                            322       $79,859,957       $7,065,99_,       _88

     EmDloyment   Stenamtae
       Aa¢Inls_rl_lon                                  A

     I*lne  Safet:y  anO Heeltn
         Aaminl sere tlon                              7               89,022              2,307,678

     OccuDi¢lonsi    SeteSy     ins
       Heel tel AaMItn_sSrlt    1on                   Z8              J26,616              9,829,246

     Office Of _e       AseLe_sr_
        Secretary   for
        Aaministr|t Ion snG
        _ensgemen _                              _                       2 _52

         TOTALS                                      ]54       $80,278,1_7       $7,078,     I_0,_12




1 Audit    exceptions     include    both    questioned
costs and costs recommended for disallowance.
Questioned    costs   are expenditures        without
sufficient documentary evidence for the auditor
to make a conclusion        on allowability.          Costs
recommended for disallowance are expenditures
that the auditor judges, based on available
evidence,   to be unauthorized         under    the terms
of the grant or contract.

                                            - 43 -
Employment     and Training   Administration

                  CETA Prime Sponsors

We issued 244 audit reports on CETA prime
sponsors.   Of _5.4 billion audited, _70 million
in grant funds was questioned due to lack of
documentation   for expenditures or non-compli-
ance with CETA requirements.      Following is a
llst of audit exceptions, the number of reports
containing those exceptions, and the amount of
audit exceptions:
                           Reports With Amount of
Audit Exception            Exceptions     Exceptions

Unresolved subgrantee
  exceptions                       93          _37,540,263

Ineligible     participants       ll0            6,865,292

Insufficient
  documentation                    61            6,522,109

Financial reporting
  exceptions                       18            5,119,869

Budget/cost     limitations
  exceeded                         26            2,551,914

No or improper
  indirect cost plan               16            1,477,847

Unallowable
  expenditures                     37            1,174,883

Interest   earned   on DOL
  advances                          3               32,728

Other                              74            9,094,628

  TOTAL                                        _70,379,533

                        - 44 -
The four reports described below illustrate
the types of audits conducted and the findings
identified during the reporting period.

o California   State Employment   Development
  Department

  Our audit of _138.5 million administered    by
  the California Balance of State prime sponsor
  from October 1976 through September 1979
  resulted in _1,703,079 of costs questioned
  because of deficiencies in the State's
  subgrant audit resolution process.    In many
  instances, subgrantee questioned costs were
  waived by the prime sponsor without retaining
  the documentation  upon which the decision to
  waive was based.   Subgrantee questioned costs
  that were sustained have not been collected
  on a timely basis.   Our audit disclosed
  _438,326 of costs sustained that should be
  returned to DOL.   There remains _I,067,O00
  in subgrant audits that have not been
  resolved by the prime sponsor.   This backlog
  is two and one-half years old.

o Massachusetts   Balance   of State

  Our audit of _143.4 million administered by
  the Massachusetts  Balance of State prime
  sponsor during Fiscal Year 1979 resulted in
  questioned costs of _3,325,510.    Statistical
  projections were presented in this unified
  audit to emphasize the potential magnitude
  of conditions noted and the need for prompt
  eorrectlve action.   These projections show,
  with 95 percent confidence, that if the
  entire universe of transactions had been
  examined, questioned costs would have been
  at least _25.9 million, approxlmately 18
  percent of total expenditures.


                      - 45 -
  The audit disclosed that the prime sponsor
  had filed inaccurate reports with DOL,
  maintained  incomplete and misleading
  accounting records, and violated CETA cash
  management policies.   Further, the prime
  sponsor performed poorly in monitoring
  subgrantee activities.   Over _2 million of
  the _3o3 million questioned pertained to
  subgrantee activities.

o City of East St. Louis,    Illinois

  Our audit of _22.4 million for the period
  August 1974 through December 1978 resulted
  in audit exceptions amounting to _4o3
  million.   The audit was complicated by fire
  damage to and losses of prime sponsor
  accounting records.   The report resulted in
  an overall adverse opinion based on what
  records were available to be audited.    Of
  the 18 administrative  findings included in
  the report, the most significant dealt with
  financial management deficiencies,  the prime
  sponsor not returning remaining funds of
  _127,828 to the Department of Labor but
  using them instead for its own purposes,
  enrollment of ineligible participants due to
  nepotism, and hiring of additional partici-
  pants for political purposes.   In 1978, a
  judge ordered that the City of East St.
  Louis no longer be considered a prime
  sponsor.  Now, with a completely new staff,
  the City serves as a subgrantee under the
  St. Clair County CETA Program.

o City of Duluth

 Our audit of the Social Employment Fund,
 which administers  the CETA program in
 Duluth, Minnesota,  resulted in all costs
 incurred from December 1974 through

                    - 46 -
  September 1981 (_1,229,600) being
  recommended for disallowance.    Of this
  total, _872,112 pertains to the same
  enrollee wages being billed to St. Louis
  County and the Department of Labor because
  of an irregular billing practice that
  existed for 6 years.   The remaining _357,488
  pertained to revenues collected through
  reimbursements  that were not used to benefit
  the CETA program.   The audit found that
  significant weaknesses in the internal
  control system existed, which resulted in a
  serious potential for program abuse.

      Indian and Native     American       Grantees

During this reporting period, 6 audit reports
covering Indian and Native American programs
were issued.   Certified public accounting
firms performing the work, under contract with
DOL, collectively audited _4.5 million of
which _441,183 was questioned.   Audit
exceptions primarily resulted from the
following:

  - Improper or unsupported        allocations        of
    costs (_169,181),

  - insufficient     documentation     of costs
    (_90,901),

  - ineligible participants or incomplete
    information to determine participant
    eligibility (_74,673),

  - ineligible     expenditures    (_2,548),    and

  - other   (_I03,880) o

Two examples     are discussed    below.


                        - 47 -
o San Bernardino   Indian   Center

  An audit report on the San Bernardino Indian
  Center in California questioned costs of
  _141,517 out of audited costs of _313,227.
  Questioned costs primarily resulted from
  lack of documentation   to support allocation
  of costs (_I16,182), insufficient documen-
  tation on intake forms to determine the
  welfare status of participants    (_22,382),
  ineligible participants   (_1,656) and improper
  charges to the CETA program (_1,297).      In
  addition, the audit report contains eight
  procedural findings that cite deficiencies
  in financial management and intake proce-
  dures.



o White Mountain   Apache   Tribe

  An audit report on the White Mountain Apache
  Tribe in White River, Arizona, questioned
  _47,905 out of audited costs of _1.4
  million.   Questioned costs resulted from
  ineligible participants   (_23,003) and
  insufficient documentation   to support costs
  claimed (_24,902).   In addition, the audit
  report contains seven procedural findings
  that cite deficiencies  in financial manage-
  ment, and property and intake procedures.

   Migrant   and Seasonal   Farmworker   Grantees

During this reporting period, 21 financial and
compliance audit reports were issued on Migrant
and Seasonal Farmworker grantees.   The audits
were performed by CPA firms under contract
with DOL.   The total amount audited was _71o4
million of which _6.3 million was questioned°
Costs were questioned primarily because of:


                      - 48 -
  - Insufficient     documentation    of costs
    (_2,951,782),

  - ineligible participants or incomplete
    information to determine participant
    eligibility (_i,145,637),

  - ineligible     expenditures    (_i,i04,088),

  - improper or unsupported        allocations     of
    costs (_439,128), and

  - other (_672,922).

Two examples   are discussed      below.

o La Raze Unida de Ohio


  An audit report on La Raze Unida de Ohio in
  Bowling Green, Ohio, questioned all
  _2,864,464 of the costs audited.   The audit
  disclosed that the grantee's systems of
  internal controls were not adequate to
  administer CETA funds.   Staff salaries were
  allocated on an estimated basis rather than
  actual charges, funds were commingled,
  excess cash balances were maintained, and a
  poor property management system was
  maintained.


o Ca%ifornla   Human Development      Corporation

 An audit report on the California Human
 Development  Corporation in Windon,
 California, questioned _212,556 of _18.2
 million audited.   Questioned costs mainly
 consisted of indirect cost charges in excess
 of the approved plan (_80,469), adminis-
 trative costs above the maximum allowable
  amount (_59,021), expenditures made without
  required prior approvals (_34,001), and

                        - 49 -
  claims by training contractors that are
  under current investigation  (_20,499)o



          Office    of National     Programs   (0NP)

During this period, 38 audit reports were
issued on ONP grants and contracts awarded to
public and private agencies for administration
of a variety of special programs for youth,
older workers, research and demonstration
projects and other special activities°
Twenty-two of the reports contained audit
exceptions totaling _1,578,872 out of _253.5
million audited, as follows:



                               Reports With Amount of
Audit Exception                Exceptions   Exceptions

Unallowable     indirect
  costs                                8         _     568,210

Insufficient
  documentation                       17               548,668

Exceeded    budget                     5               222,917

Unallowable     expenses               8               114,588

Ineligible     participants            4                93,907

Costs   incurred     without
  approval                             3               "27,642

Posting    errors                      1                 2,940

  TOTAL                                          _1,578,872




                           - 50 -
        State Employment     Security   Agencies

Thirteen audit reports were issued on State
Employment Security Agencies during this
reporting period.   Of the _2.2 billion
audited, _l.1 million in exceptions were noted
as follows:
                            Reports With      Amount of
Audit   Exception           Exceptions        Exceptions

Insufficient
  documentation                    4          _     607,482

Exceeded    budget                 2                342,930

Unallowable    costs               3                149,007

Improper transfer
  between grants                   1                 47,393

  TOTAL                                       _I,146,812

Mine    Safety and Health    Administration

During this reporting period, six audit reports
were issued on MSHA grants to states totaling
_2.3 million.  Audit exceptions totaling
_89,022 were noted as follows:

                            Reports With      Amount of
Audit   Exception           Exceptions        Exceptions

Insufficient
  documentation                    3          _45,421

Unallowable    expenses            2              39,449

Unallowable    indirect
  costs                            i               4,152

  TOTAL                                       _89,022

                          - 51 -
OccupationalSafety      and Health   Administration

Seventeen audit reports of OSHA       grants to
states and public organizations       covering _9.8
million were issued during this       reporting
period.   Seven of these reports      contained
exceptions listed below totaling       _326,616.

                          Reports With     Amount of
Audit Exception           Exceptions       Exceptions

Unauthorized
  procurement                    3         _167,274

Exceeded   indirect
  cost rate                      2          151,405

Unallowable     costs            2             4,431

Exceeded   budget                3             1,485

Costs charged to
  wrong period                   1             1,438

Unallowable   earned
  interest                       1               583


  TOTAL                                    _326,616

Departmental Management
We issued 3 audit reports on contracts issued
by the Office of the Assistant Secretary for
Administration and Management.  Audit
exceptions totaled _2,552 from one report for
overbilling.




                        - 52 -
OFFICE   OF ORGANIZED   CRIME AND RACKETEERING

From April    i, to September 30, 1982, the
Office of    Organized Crlme and Racketeering
opened 27    cases.   Twenty-slx cases are being
considered    for prosecution by either the
Department    of Justice or other authorities.

There were 19 indictments Involving 31
individuals during thls reporting period.   As
a result of trials or pleadings, 44 indivi-
duals were convicted.   Also there were two
consent Judgments entered.   They relate to the
complaint, based on the civil provisions of
the Racketeer Influenced and Corrupt Organi-
zations (RICO) statute, filed against the
present and former officers of International
Brotherhood of Teamsters Local 560. Anthony
"Tony Pro" Provenzano and Nunzio Provenzano
have agreed to remove themselves from any
further union or fund actlvity.   The complaint,
which resulted from a joint OIG-FBI investi-
gation and which was discussed in detail in
the last semiannual report, seeks injunctive
relief to prevent associates of Provenzano
family and friends from committing further
racketeering violations and seeks the appoint-
ment of one or more trustees to control and
audit the assets of the union and benefit
funds and to conduct a general election for
officers under free and democratic conditions.

Two of our cases--U.S.v.   Romano et al. (S.D.
N.Y.) and U.S.v.   Cusmano (E.D. Mich.)--
Involved novel applications of law in the
prosecution of labor crimes.   They are
discussed in detail in the examples of some of
our most significant cases that follow.

o In the continuing investigation in New York
  Clty of labor racketeering and organized

                        - 53 -
 crime activities in the Fulton Fish Market,
 to date, 32 of 44 defendants have been
convicted or pled guilty to charges; 9 await
 trial, 2 were acquitted, and 1 is a fugitive.
 Included among those entering guilty pleas
 is Vincent Romano, brother of Carmine and
 Peter Romano who were sentenced in February.
Vincent Romano pled guilty to conspiracy and
was sentenced to 1 year and 1 day in prison.
He had also been charged with making false
statements to the Chemical Bank to induce
 the extension of more than _260,000 in loans
to the Major Fish Company, a wholesale fish
company formerly located in the Fulton Fish
Market.    Romano, the president and sole
stockholder in the company, inflated its
assets to obtain the loans and then defaulted
on over 3110,000.   In a Fatico Hearing (in
which the government presents evidence of
organized crime connections to influence the
sentencing) in February for Carmine and Peter
Romano's sentencing, the judge found that
Vincent Romano had been conducting the
affairs of the United Seafood Workers Union
Local 359 for his brother Carmine Romano,
now serving a 12-year sentence and who ran
the Market and the local for the Genovese
organized   crime   family.

Carmine and Peter Romano, who were convicted
on racketeering charges of extortion, receipt
of illegal payments, obstruction of justice,
and misuse of the union's pension and welfare
funds, appealed the latter charge.   The
charge of misuse of the unio_ s welfare and
pension funds stemmed from the Romanos'
having the funds transferred from a Califor-
nia bank to a New York bank that was offering
gifts for new deposits.   Using the local 359
office employees to deposit the money, the
Romanos received 17 color television sets

                     - 54 -
valued at 3424 each and gave them to friends,
relatives, and union officials.   The charge
was tried as an 18 USC 1954 violation (an
offer, or acceptance, of a gift, or thing of
value to influence the operation of the
employee benefit plan); most prosecutions
under this section have in the past been
clear two-party kickback transactions.    The
Romanos lost their appeal.

Others who entered guilty pleas since April
i, 1982, are:   Gennaro Prisinzano, Domenick
Lategano and Thomas Gillio, employers of fish
unloading companies, charged with income tax
evasion; Walter Cole, accountant for local
359 and for several businesses in the Market,
who withdrew an earlier plea for improperly
filing annual labor reports and pled guilty
to preparing false tax returns for Vincent
Romano's Major Fish Company; Frank Fogliano,
employee of the local, charged with accepting
illegal payments from Market businesses; and
businesses--C.  G. Wadman, Mazur & Jaffee Fish
Company, Inter-City Fish, Tam Fillet, and
Fulton Fish Mongers Association--charged
with making illegal payments.

Seven men were indicted on conspiracy to
commit theft and robbery from interstate
shipments.  Since at least 1979, the
defendants allegedly have stolen thousands
of pounds of fish from trucks they were
unloading, and put the stolen fish into
their own boxes, which were then taken to a
wholesale fish company owned by Kenneth
Gillio in the Fulton Fish Market.   Gillio's
codefendants are:   Philip Almeraris, Robert
Gillio, Thomas Gillio, Paul Guglielmo, Carl
DePasquale, and John Talerico, who is also
charged with obstruction of justice and
perjury.

                  - 55 -
  Additional   indictments   included   Richard
 Sabatino, owner of Neptune Fish, an alleged
 organized crime connected company in the
 Market, who was charged with wire fraud in
 connection with defrauding a fish dealer of
 _57,000 worth of fish; and Victor Grande,
 charged with conspiracy to commit extortion
 and income tax evasion.   He allegedly re-
 quested parking fees from individuals who
 parked their vehicles on public streets in
 the Fulton Fish Market.   His requests were
 often allegedly accompanied by threats of
 violence and force.   Those who did not pay
 would find their vehicles vandalized and
  fish stolen.  Between 1977 and 1980, he
  allegedly failed to report over _135,000        of
  income he received.

  This joint investigation with the IRS and
  the New York City Police Department
  continues.  U.S.v.   Romano et al. (S.D.N.Yo)

o John F. Duff, vice president of the
  Distillery, Wine and Allied Workers
  International Union, was sentenced in two
  separate trials.    In the first case, Duff,
  who is a salaried official of three Chicago
  local unions in addition to his p_ tion
  with the International, had been iLLuicted
  with codefendant Howard J. Hansen, president
  of local union 3 in Chicago, on charges of
  embezzlement.   Duff pled guilty to two counts
  of the indictment and agreed to immediately
  resign all fiduciary positions with all labor
  unions and affiliated pension, health and
  welfare plans.   Codefendant Hansen pied
  guilty to a one-count information and agreed
  to resign all fiduciary positions immediately
  prior to trial.




                      - 56 -
  Duff, who had been charged with embezzling
  _94,064 from two locals, was sentenced to 6
  months in prison on a work release program,
  5 years' probation, and fined _5,000.    Hansen
  had been charged with embezzling _27,192 from
  two locals and was sentenced to 3 years' pro-
  bation and fined _i,000.   The amounts embez-
  zled included unauthorized  salary increases,
  year-end bonuses and expense payments.    They
  had also taken and converted dues check-off
  money   from one local to another.

  In the Detrolt case, a spln-off from the
  Chicago case, Duff and Daniel Trlglla,
  president of Distillery Workers Union Local
  42, had been charged with 15 counts of
  embezzlement  of union funds, obstruction of
  Justice and falsification  of union records.
  Duff pied guilty to one count of embezzling
  _4,500 and one count of accepting an illegal
  payment, and was sentenced to 2 years in
  prison.

 Trlglla, who is allegedly associated with
 major organized crime figures in the Detroit
 area, pied guilty to two counts of embezzling
 _ii,000 from local 42 in the form of unautho-
 rized Christmas bonuses for himself, Duff,
 and three other union officials and _2,844
 he and Duff kept after selling some of local
 42's office furniture and equipment.    Trlglla
 is awaiting sentencing.   The Bureau of
 Alcohol, Tobacco, and Firearms assisted in
 this case.   U.So v. Duff and Hansen (N.D.
 Iii.) and U.S.v.   Duff and Trlglia (E.D.
 Mich.)

o Joseph Do Cusmano, president and part owner
  of the Detrolt-based  J&J Cartage Company,
  was convicted of violating and conspiracy to
  violate the Hobbs Act and sentenced to 3

                      - 57 -
  years in prison and fined _5,000.   Previously
  convicted in 1977 on the same charges fol-
  lowing an IMSA-IRS investigation  that began
  in 1974, Cusmano had his first conviction
  reversed by the U.So Court of Appeals for
  the Sixth Circuit because of an improper
  Jury instruction°   The case was transferred
  to OIG when preparation for retrial was
  begun.

  Cusmano and three codefendants were charged
  with forcing the company's employees, who
  were members of Teamsters Local 299, to pay
  their own contributions  to the health and
  welfare and pension funds, thus deviating
  from the union contract°   This case repre-
  sents the first known reported conviction of
  an employer extorting his unlon-represented
  employees°  Most Hobbs Act prosecutions   in
  the labor context have been against union
  members or officers shaking down management.

  His codefendants, who were convicted in
  1979, are Vincent Meli, identified in the
  Senate Permanent Subcommittee hearlngs on
  organized crime as a high-level Detroit
  organized crime figure; James "Jack" Russo,
  the other owner of the company; and Roby G.
  Smith, business agent for Teamsters Local
  299.   U.So v° Cusmano (E°D. Micho)

o An ongoing investigation  of the Joel Sokol
  Dental Plan in New Jersey has resulted in
  the conviction and sentencing of Stanley
  Resnick, president of Metro Dental Service,
  Inc., which functioned as the administrative
  and financing arm of the Sokol clinic°   He
  was sentenced to I year and I day for
  conspiracy and interstate transportation  of
  stolen property°


                    - 58 -
  Resnick had conspired with other defendants
  to obtain financing for the Sokol operation
  from the Chase Manhattan Bank through the
  use of a falsified invoice from the Profes-
  sional Equipment Manufacturing Company, which
  purposely overvalued the dental equipment.

  His codefendant, John Burke, a salesman for
  a company that supplied dental equipment to
  Metro for the Sokol clinic, had previously
  pled guilty to making a false credit applica-
  tion.   He was sentenced to 5 years' probation
  and fined _l,000.   U.S.v.  Resnick and Burke
  (D. N.J.)

o The Matsushita   Electric Corporation of
  America (MECA)--also known as Panasonic--
  pied guilty to i count of wire fraud and i0
  counts of giving things of value to local
  805 of the International Brotherhood of
  Teamsters, Chauffeurs, Warehousemen and
  Helpers of America, its officers and
  employees between 1966 and 1976.       During this
  period, local 805 represented some of the
  MECA employees.     The wire fraud count charges
  that MECA, a wholly-owned     subsidiary of
  Matsushita Electric Industrial Co., Ltd., of
  Japan, defrauded the parent company by giving
  MECA corporate assets to local 805, its
  officers and employees.     MECA, located in
  Secaucus, New Jersey, received the maximum
  fine of _I01,000.     The investigation was
  initiated by IMSA and transferred to OIG.
  U.S.v.   Matsushita   (S.D.N.Y.)

o Daniel Cunningham, president of the Allied
  International Union of Security Guards and
  Special Police and the Federation of Special
  Police and Law Enforcement Officers, was
  sentenced to 5 years' imprisonment to be
  followed by 5 years' probation and fined

                      - 59 -
  580,000.   Herman Jaffe, business agent for
  the same organizations, was sentenced to
  serve 3 months of a 5-year term and the rest
  on probation and fined 55,000°    They had
  been convicted of violating the Racketeer
  Influenced and Corrupt Organizations    (RICO)
  statute, RICO conspiracy, embezzlement,    ob-
  struction of justice and attempted bribery
  of an OIG Special Agent°    Both men were
  released on their own recognizance pending
  appeal of their sentences°    Following
  attempted bombings of a vehicle owned by
  Cunningham's father-in-law,   who was a govern-
  ment witness during Cunningham's trial,
  Cunningham's bail was revoked°    At
  Cunningham's bail revocation hearing,
  testimony was heard pertaining to his threat
  to kill his father-in-law   if he testified°
  Testimony was also presented relating to
  Cunningham's involvement in the attempted
  bombings of the vehicle°    UoSo Vo Cunningham
  and Jaffe (E.Do NoYo)

o An insurance kickback scheme involving
  various pension and welfare plans of the
  Laborers International Union of North
  America has resulted in the convictions and
  sentencings of eight defendants, including
  several officials of the union, on charges
  of conspiring to violate the RICO statute°

  A joint OIG-FBI-IRS investigation  found
  evidence that the scheme, which operated
  from 1970 to 1977, was to get money for the
  defendants and co-conspirators  by setting up
  or purchasing insurance companies and then
  influencing unions and trust funds to funnel
  insurance business into them°   The defendants
  would then charge union members for the most
  expensive insurance and loot the insurance
  premiums paid by using them for kickbacks,

                     - 60 -
payoffs,    unearned   salaries and fees, and
improper    personal   expenses.

The union insurance business was funneled
into what was intended to be a nationwide
company that Joseph Hauser, a convicted
insurance-swlndler-turned-government-wltness,
was to arrange.    Hauser's company received
over _39 million from various employee
benefit plans nationwide; approximately     38
million from Florida.     Kickbacks were given
from these premiums in the forms of cash and
other things of value°

Convicted    and sentenced   were:   Tames
Caporale, secretary-treasurer   of the Chicago
and vicinity District Council of the Laborers
Union, to 12 years in prison; Seymour Gopman,
former legal counsel to Florida Laborers'
locals and benefit plans, to 5 years and 4
months (he had been convicted in 1978 on
labor violations following a Joint II_SA-IRS
investigation   and some of that evidence was
used to corroborate evidence used in the
current convictlon); Lewis Ostrer, former
operator of benefit plans in New York
(currently serving a Jall sentence in a
federal penitentiary as a result of an IRS
investigation),   to 7 years concurrent with
the sentence he is now serving; Alfred
Pilotto, alleged organized crime figure in
Chicago and a high ranking Laborers official
In the Chicago area, to 20 years; Bernard G.
Rubln, former principal union official of
the Laborers Union in Southeastern Florida
(currently serving a Jail sentence following
a Joint LMSA-IRS investigation),    to 8 years
concurrent wlth the sentence he is now
serving; George Wuagneux, real estate
developer (now serving a jail sentence for a
racketeering conviction resulting from

                       - 61 -
    another    investigation          conducted        by OIG
    Special    Agents   of the        Office   of      Organized
    Crime and Racketeering,       the FBI and the IRS),
    to 7 years    concurrent   with the sentence      he is
    now serving;     John Giardiellio,    president    and
    business   agent   of Laborers   Local 767 of West
    Palm Beach and trustee      of the local's     welfare
    fund and of the Southeast       Florida   Laborers
    District Council          Dental,          Vision  and Preven-
    tive Care Trust          Fund, to          12 years;  and
    Salvatore   Tricario,    business               agent and
    recording   secretary    of local               767Ws welfare
    fund and special     International                represent-
    ative,   to 12 years.


    Anthony    Accardo,       alleged          syndicate    boss    of
    Chicago;  Angelo   Fosco,  general  president                    of
    the Laborers   International;    and Terrance                    Jo
    O'Sullivan,     president  of World Wide Insurance
    Company   of Washington,     DoC., and former
    general   secretary-treasurer     of the Interna-
    tional   union,   were acquitted.


    Five other      defendants,           including    Santo
    Trafficante      who is the           reputed   head of
    organized    crime       in Tampa,   are awaiting
    trial.    U.S. Vo        Accardo   et alo (S.D. Fla.)


o   James Paone,       recording    secretary   of
    International       Brotherhood     of Teamsters               Local
    863, Biagio     Federico,    owner and president     of
    Federico    Trucking    of Edison,    New Jersey,   and
    Thomas   Pecora,    general   manager   of Federico
    Trucking,    were   indicted   on conspiracy    to
    violate   the RICO statute,       following   a joint
    OIG-IRS-New     Jersey   State Police    investi-
    gationo


    Federico      Trucking     has    a       subcontract    to    carry
    bakery goods for Shop-Rite   Foods,   while  local
    863 has the Shop-Rite  drivers   under union

                               - 62       -
  contract.  The indictment charges that, from
  November 1972 until about December 1981,
  _ederico Trucking had no-show employees on
  its payroll to generate payoffs that _mount
  to about 3255,000 in kick-backs to Paone and
  others with intent to obtain their influence
  as representatives  within the local.  This
  "sweetheart" arrangement enabled the trucking
  company to avoid having its drivers organized
  by local 863.   Also, Federico Trucking alleg-
  edly paid health and welfare contributions   of
  about _8,000 from 1975 through 1981 on behalf
  of a relative of Paone although she was never
  an employee.   Pecora is the son of Joseph
  "Toe Peck" Pecora, Sr., a repute_ member of
  the Genovese crime family and former chief
  operating officer of local 863; his brother,
  Joseph Jr., is the current chief operating
  officer of the local.    U.S.v. Paone et al.
  (D. N.J. )

o Ralph Torraco, accountant for the Trucking
  Employees of North Jersey Welfare and
  Pension Fund, pled guilty to a one-count
  information charging him with willful
  violations of the reporting requirements of
  ERISA and to one count of income tax evasion.
 He was sentenced to I year in prison and
 fined _I0,000.    Torraco had been indicted in
 Newark with having evaded payments of sub-
 stantial amounts of income tax for the years
 1975-78, and, in a separate indictment, with
 having defrauded the Trucking Employees of
 North ,Jersey Welfare Fund and Pension Fund
 through fraudulent billings for accounting
 work.   This was a joint OIG-IRS investiga-
 tion.   U.S.v.  Torraco (D. N.J.)

o Following the shooting and wounding of the
  father of a protected witness, who is an
  important potential witness in the investiga-

                     - 63 -
tion of Bartenders       Local   54, OIG Special
Agents   and law enforcement        officials   from
other   agencies    supplied    enough   information
from witness     interviews     to the Department    of
Justice    to eventually     lead to the revocation
of ball for Nicodemo        Scarfo,    reputed  boss of
the Bruno    organized    crime    family.

Both   the    father   and   son       had    testified
against  Scarfo    in a murder               trial, and the
son had testified     recently               before the U.So
Senate  Labor   Committee   and              the New Jersey
Gaming  Commission       that      Scarfo       controlled
local  54.


Scarfo   had been convicted              of possession   of        a
revolver    in 1981 while he             was a convicted
felon.       While  he appealed   his conviction,                 he
was out      on bail on the condition     that he                not
consort      with convicted   felons.


In Scarfo's     bail revocation   hearing,    an OIG
Special   Agent   provided  material    testimony.
Testimony   was also given by law enforcement
officers   from the New 7ersey      State Police,
Atlantic    County   Prosecutor's     Office,    Atlantic
City Police     Department,    New Jersey     State
Crime   Commission,     Pennsylvania    State Crime
Commission,     and the FBIo      These witnesses
testified    to about 15 instances        in which
Scarfo   was under surveillance        and met with
convicted    felons  associated               with   organized
crime.    U.S.v.    Scarfo   (D.             NoJ.)




                         - 64      -
COMPLAINT CENTER

From April i to September 30, 1982, 187 out of
312 complaints received by the complaint center
have warranted either audit, investigative,   or
program agency attention.   These do not include
the number of calls, complaints, or inquiries
received and handled without the need to open
a formal complaint file.   The sources of the
complaints received were Hotllne telephone
(89), mail (57), General Accounting Office
Fraud Task Force Referrals (39), and others
(2). The number of complaint files opened in
this period represents an increase of 66 per-
cent over the 112 case files opened during the
last reporting period.

Of the complaint files opened, 170 pertained
to four Departmental agencies.    The Employment
and Training Administration   (ETA) accounted
for 78 complaints,  the Employment Standards
Administration  (ESA) for 59, the Occupational
Safety and Health Administration    (0SHA) for
20, and the Mine Safety and Health Adminis-
tration (MSHA) for 13. The remaining 17
complaints were dispersed throughout eight
other DOL agencies.

After preliminary  review of the 187
complaints,  the center forwarded 46 for
initial inquiry by OIG investigators,  8 for
OIG audit attention, and referred 128 to
respective program agencies and 5 to other
sources for inquiry.

The substance of the complaints received
remained consistent with the last reporting
period, wlth ETA complaints dealing mainly
with alleged abuses in the CETA program and
unemployment compensation  fraud.  ESA com-
plaints concerned mostly FECA and Black Lung

                     - 65 -
  benefit recipient fraud or the mishandling and
  slow processing of claims by OWCP offices.
  The OSHA and MSHA complaints related to
  employee integrity issues, such as misuse of
  government vehicles and telephones, conflicts
  of interest, and abuse of leave.   Matters of
_ waste, mismanagement,  or employee integrity
  were alleged in complaints against the
  remaining agencies°

During this reporting period, 152 complaint
files were closed based on responses received
or actions taken after initial referral.    Some
 of the closed files related to complaints
 referred for action in earlier reporting
 periods.   Of the 152 complaints, 132, or about
 86 percent, were determined to be unfounded or
 could not be substantiated while the remaining
 20 complaints, or about 14 percent, were found
 to have some substantiation   to the allegations.

 Examples of actions   taken on some substantiated
 complaints follow.

 o An OSHA employee was suspended for 5 days for
   misuse of his assigned GSA vehicle.

 o A BLS supervisor was suspended for 7 days
   without pay and had his supervisory responsi-
   bilities reduced, and his wife, a BLS
   employee under his supervision, was allowed
   to resign and ordered to repay _193.64 for
   improperly-claimed  travel funds.  They had
   been secretly married and she had been filing
   for travel that originated at a fraudulent
   address, allowing her to claim more for
   travel than she should have.

 o A FECA recipient had his monthly compensation
   reduced by _400 per month and has been re-
   quired to repay _2,683 in overpayments he

                       - 66 -
  received because he claimed support of a
  dependent child when, in fact, he did not
  provide such support.

o A Texas training organization receiving CETA
  funds was sent a demand letter ordering re-
  payment of _207,000, after an audit dis-
  allowed various indirect costs for lack of
  proper   documentation.

o A former CETA subgrantee employee agreed to
  repay _2,326 in misapplied CETA payroll
  check funds she received after leaving her
  CETA position.




                       - 67 -
                  PART   llI

MONEY   OWED   TO THE DEPARTMENT   OF LABOR




In accordance with a request in the Senate
Committee on Appropriations'    report on the
Supplemental Appropriation    and Rescission
Bill of 1980, the chart on the following
page shows unaudited estimates provided by
the agencies of the Department of the
amounts of money owed, overdue, and
wrltten-off  as uncollectible   during this
6-month reporting period.




                   - 6_ -
              SUMMARY OF ESTIMATED DEPARTMENT OF LABOR RECEIVABt.ES
                       (Estimated in thousands of dollars)

                                     OutstandlnE                 Delln-                 Ad_lustments &
         Program                     Receivables           11    quencies       2_/     Write-Offs
          Same                       9130/82               --    9/30182                FY 82 31


Employment     Standards
Administration

Federal     Employees
Compensation      Act
o overpayments        to
   beneficiaries/
  providers                          _ 12,983                    _ 12,983               $        858

Black    Lun8 Program
o Responsible Mine
   Operator    reimburse-
   ment & overpayments
   to beneficiaries/
   providers                             174,319                  166,494                   159,200

Emplo_ment & Tralnln          8
Administration

o disallowed      costs
  from auditin8        or
  monitoring      outstand-
  ing cash balances
  after    contract     termi-
  nation;     erroneous     over-
  payments to 8rantees                   139,992                  121,552_4/                     220

Mine Safety & Health
Admlnlstratlon

o civil penalties
  from mine operators                       8,650                    8,390                    1,709

Occupational     Safety       a
Health   Administration

o civil penalties
  from businesses                           9,596                    9,596                       900

Pension Benefit
Guaranty Corporation

o teminated      plan assets
  subject   to transfer,
  employer    liability,     and
  accrued   premium income               155,925                  137,675

     TOTALS                              _501,465                _456,690               %162,887



_1/ As defined        by OHB Bulletin              No. 81-17,     this  column   includes
actual    receivables         and amounts          identified     as continSent     receivables
that   are subject        to an appeals            process    that can eliminate       or reduce
the amounts       identified.

2/    Any amount more than 30 days overdue                       is delinquent.              Includes
_tems   under appeal and not in collection                       mode.

 3/  Includes       write-offs      of     uncollectible          receivables         and adjustments
of contingent        receivables         as a result        of   the appeals          process.

4/      _105 million     of   this    amount is either   under               appeal       or covered    by
     repayment    schedule;      o-17   _16.5  is immediately                collectible.
APPENDIX
                                              SELECTED    STATISTICS

Audit     Activities

Reports    issued   on DOL               activities                                       354
       Audit   Exceptions                                                   $    80,278,147

Reports      issued         for       other    federal    agencies                               4

Dollars    resolved                                                         $    80,818,788
       Allowed                                                              $    40,972,088
       Disallowed                                                           $    39,846,700

Fraud     Investigation                Activities

Cases     opened                                                                           269

Cases     closed                                                                           324

Cases     pending          as    of    9/30/82                                             469

Cases     referred          for       prosecution                                             92

Individuals          or     entities          indicted                                     i00

Individuals          or     entities          convicted                                       70

Cases     referred    to DOL agencies
   for    administrative    action                                                            74

Employees          suspended                                                                     7

Employees          terminated                                                                 23

Fines                                                                       $          103,779

Recoveries                                                                  $          609,O18

Collections                                                                 $          784,523

Organized          Crime        and    Racketeerin_       Investigation   Activities

Cases     opened                                                                              27

Cases     closed                                                                              34

Cases     referred          to    DOJ/others                                                  26

Individuals           indicted                                                                31

Individuals          convicted                                                                44




                                               - 73 -
                                     Audit  Resolution Activity
                             April     1, 1982 to September     30,      1982




                                             April   1, 1982             Issued
                                         Balance     Unresolved       (_lncreases_
         Agency/Program                  Reports      Dollars 1/   Reports      Dollar_____s


 Employment    and Traininq
      Administration



     CETA    Sponsors

         Prime Sponsors           97             $57,929,398       244   $70,379,533
         Native    Americans     165              18,108,558         6        441,183
         Migrants                 18               3,283,627        21     6,313,557
         Job Corps                 1                  199,689
         Older Workers             1                   14,318        2          !80,724
         Policy,    Evaluation &
            Research               3                        513     11          475,039
         Other    National Pgms   14                   932,817      25          923,109

     State Employment
        Security Agencies                 5          5,888,509      13     1,146,812

Employment     Standards
  Administration                                                     4            -


Occupational Safety &
  Health Administration                   7             94,692      18          326,616

Mine Safety & Health
    Administration                        6             95,522       7           89,022

Office     of the Asst. Secy
   for    Admin and Mgmt             5                    4t093      3            2t552

Total                           2/   322         $86t5511736       354   _80r278t147




!/       "Dollars"     signifies    both questioned     costs (costs that are
         inadequately       documented     or that require    the grant  officer's
         interpretation       regarding   allowability)    and costs recommended
        for disallowance         (costs that are in violation     of law or regula-
        tory    requirements).

2/      The differences     between the beginning     balances   in this sched-
        ule and the ending balances in the schedule          in the previous
        Semiannual    Report   are a result of refining    our management
        information   system.



                                         -    74 -
             Resolved                 September 30, 1982
           _Decreases) 3/             Balance Unresolved
            Allowed     Disallowed    Reports     Dollars




 143   $33,314,977    $22,453,176     198      $72,540,778
161      4,583,984     10,105,417      10        3,860,340
  17        804,127     2,246,210      22        6,546,847
   1          1,814        197,875                    -
   I          -             14,318        2         180,724

  8           -               513          6       475,039
 16         551,189       306,615         23       998,122


  6       1,385,078     4,503,431         12     1,146,812


  3                         "             1           "




 14         235,397        18,744         11       167,167


 10          95,522             401       3         88,621


__5                         -         _              6t645

38...55 _40t972t088   _39t846t700     29__!1 _86r011t095



  3/ Audit resolution occurs when a final determination for
     each audit finding has been issued by the grant officer
     and accepted by the Office of inspector General. Thus,
     this table does not include activity subsequent to the
     final determination such as: the appeals process; the
     results of the program agency's debt collection efforts;
     or revisions to prior determinations.




                        - 75 -
-   76-
                      SUMMARY  OF AUDIT                   REPORTS   iSSUED
                    DURING THE CURRENT                    REPORTING    PERIOD



During  the current  semiannual reporting period April 1, 1982
to September  30, 1982, we issued 358 audit reports   as follows:

DEPARTMENT            OF LABOR

  Employment         and     Traininq      Administration

    CETA       Sponsors:

        State and Local           Prime Sponsors                            244
        Native American            Grantees                                   6
        Migrant  and Seasonal Farmworkers     Grantees                       21
        National Programs for Older Workers Grantees                           2
        Policy,  Evaluation   and Research Grantees                          11
        Other National    Programs Grantees                                 25     309

    State      Employment         Security     Agencies                             13

 Mine     Safety     and     Health      Administration

    MSHA       Sponsors                                                              6

    Internal       Audit                                                             1

  Office of Assistant  Secretary for
      Administration  and Management

    OASAM          Contractors                                                       3

  Occupational         Safety     and     Health   Administration

    OSHA       Sponsors                                                             17

    internal       Audit                                                             1

  Employment         Standards          Administration

    internal        Audits                                                           4

OTHER       FEDERAL          AGENCIES

  Federal      Emergency         Management        Administration                    1
  Small     Business       Administration
                                Total                                              358


                                          - 77 -
-   78   -
- 79 -
    ,                                        iii
_   _!   _l   l   AAAAAA    ==l   I A   _1   J A   _=I ' A   _I   i A




                   - 80 -
_ " !!__ [                 i _.      il

 x_.   x'..x    \x..   xxx\xx'.,   xx'..




           - 81 -
i!                              Ii i o
     I i , ,?,          , ,?,   ,?
     Illllllllllllll_




- 82 -
                           i ill o
li ,
_,__     I  I
       t'_C_C__l   I   l   l   I   l   I   I   I   I   l   I   l     I
                                                                   t"_   I




              - 83 -
- 84 _
I--1_-4_,-1_-4   I,-I   I--II-,I   _-t   _   I-I_-t1-I_,1




                         - 85 -
                        i!it
                          !i'i
H




          _NN_N_NBNNN      NN   Q   NNN




    _   >>>>>>>>>>>>>>>>        >   _

                  - 86 -
             U




         I



- 87 -
             _   o




_                    o




    _ 88 _
!   _               ._                       8_

                                              i
    •_   t"_ £'1 f"_ _1   t_ ',,ID   |   |        I




                     - 89 -
              ill,if!
rii,
       '_
       _
            _ _ °_ _ _?_eoo°°_°
              _l
              I
                   _l
                    I
                           _ '7??
                        e,l_l
                         I I
                                _°__
                                   _o
                                   '77
                                ¢_1 e_l e_l _l _1 _1
                                 I I I I I I
                                                       _l
                                                        I
                                                             I  V
                                                            _¢I0_
                                                                    I
                                                                        _
                                                                         I   I




                                - 90 -
                     I!

   °_




NNN>!>N       N

          -   91 -
       i!l, i
IIII    II          IIIIII   IIII




             -   92 -
- 93 -
                 H




+_   _          I _


     ++
      ++oii il
+I        _N_




     - 94 -
o            o   88_8




    - 95 -
_ 96 I
- 97 -
   0        _oa

        co°x_

_._.        _
B" cD       C_cD_

            •   0    0


o_          r_ g
o           o_




 r-     _       ao_




                    08
